<html>
<title> - NASA FISCAL YEAR 2010 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 111-443]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-443
 
                  NASA FISCAL YEAR 2010 BUDGET REQUEST

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
54-283                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
MARK WARNER, Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2009.....................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     1
    Prepared statement of Hon. Kay Bailey Hutchison, U.S. Senator 
      from Texas submitted by Hon. Bill Nelson...................    29
Statement of Senator Vitter......................................     2
    Prepared statement...........................................     2
Statement of Senator Isakson.....................................    23

                               Witnesses

Christopher Scolese, Administrator (Acting), NASA, prepared 
  statement......................................................     3

                                Appendix

Response to written questions submitted to Christopher Scolese 
  by:
    Hon. Barbara Boxer...........................................    31
    Hon. Tom Udall...............................................    34


                  NASA FISCAL YEAR 2010 BUDGET REQUEST

                              ----------                              


                         THURSDAY, MAY 21, 2009

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, good afternoon and thank you for 
being here.
    We want to get into NASA, and this is on the heels of just 
a phenomenally successful mission. It is extraordinary that you 
can take humans and machines and put them together and make 
them do wondrous things that will open up all new avenues of 
information about what the universe is, how long it has been 
there, and why we are where we are in this infinite space 
called the universe. Congratulations to you, Mr. Scolese, for 
an exceptional, successful journey, and we look forward to 
their return.
    The communication that Barbara Mikulski had with them from 
her Committee was just outstanding and you could see with the 
smiles on their faces in that extraordinarily clear photography 
just how much they are relishing the success.
    I am going to put my opening statement in the record. We 
will do the same for Senator Vitter.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Before we begin, I want to say a few things and I'd like to start 
by thanking Chris Scolese, NASA's Acting Administrator for being here 
today. I know that this is a very busy time and that as Acting 
Administrator you have to cover a lot of bases. Thank you for your hard 
work and dedication to our Nation's space program.
    I also want to say just how inspiring it has been to witness this 
amazing Hubble servicing mission. Senator Mikulski graciously offered 
me the chance to stop by her hearing earlier today and chat briefly 
with the STS-125 crew and it has been fantastic to see just how well 
our human spaceflight programs and our science programs can work 
together. I am really looking forward to many more years of great 
scientific discoveries from Hubble and its top-notch team of scientists 
and engineers.
    It is hard to believe that the Space Shuttle era is drawing to a 
close. Despite numerous issues, the Shuttle has been an amazing vehicle 
and has provided our country and our international partners with a 
unique capability. It astounds me that the U.S. will lose its ability 
to put astronauts into space just as we are completing the 
International Space Station.
    But now we have to move on to the matter at hand, and that is the 
administration's proposed NASA budget. On this front I have to say that 
I am both grateful and dismayed. I am grateful that the administration 
has realized that this is a critical time for our space program and 
proposed additional funding in FY 2009 and 2010.
    However, I am dismayed and frustrated by the proposed out-year 
budget levels, particularly in the Exploration account. This budget 
request shows a three billion dollar decrease in out-year Exploration 
funding compared to the amount previously identified as needed to 
accomplish these programs. It looks to me as if the administration's 
space policy is once again being set by OMB and that the budget request 
will not stay true to the comprehensive vision laid out by the 
President.
    Last year then Senator Obama noted that the Bush Administration had 
underfunded NASA. When I look at these out-year budget numbers I fear 
that we are doomed to repeat that history. I sincerely hope that is not 
the case and will certainly do everything I can to make sure NASA is 
adequately funded.

    Senator Nelson. Senator Vitter, do you want to make any 
comments?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. I just want to welcome the Administrator 
and also congratulate him on his work in general on this 
mission.
    I will also submit my statement for the record so we can 
have more time for discussion.
    [The prepared statement of Senator Vitter follows:]

  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana
    I want to thank the Chairman for scheduling this important hearing. 
NASA is at a critical stage in its history and the actions the White 
House and the Congress take on this Budget request will likely have 
repercussions for many years to come.
    Mr. Scolese, I join my colleagues in welcoming you here as our 
witness today. Though you have been thrust into the role of Acting 
Administrator, I believe you have demonstrated not only a solid 
background and experience in NASA programs, but have also brought good 
grace and professionalism to a job that bears great responsibility. 
Thank you again for your service.
    I also want to congratulate you and NASA for the outstanding work 
done by the Space Shuttle crew on STS-125, who are due to land, I 
understand, in Florida tomorrow. Their work to service the Hubble Space 
Telescope has been watched eagerly and hopefully all week, and we are 
pleased to hear of their success.
    The FY 2010 Budget Request represents a hopeful sign that there is 
a strong recognition of the value of the Nation's civil space program 
in meeting the challenges we face as a nation. I continue to believe 
that the space program represents one of the best uses of taxpayer's 
dollars, because it is an investment that we can expect will return 
even greater value to our economy and bring scientific, medical and 
other benefits that can improve the lives of everyone.
    The total funding level for NASA in this budget represents a 5-
percent increase over the enacted level from FY 2009, which, as I said, 
is a hopeful sign. We may have differences among us regarding the 
distribution of those funds among NASA's various accounts, and we will 
address those as we move forward with our review of the budget in 
detail.
    What I believe is clear to most of us, however, is that the 
projected funding levels provided in this proposal for the 5-years 
following FY 2010 represent a virtual no-growth budget that likely 
would not even keep pace with inflation. This should be a cause for 
concern for all those who support NASA, regardless of their specific 
program interests, since it would force the cancellation of programs, 
or the kind of competition for funding that generally leads to 
stretching of schedules or de-scoping of missions in ways that 
ultimately mean the taxpayer gets less payoff for more dollars spent. 
It is truly penny-wise and pound foolish.
    We have a number of challenges, especially, in the area of human 
spaceflight. The planned retirement of the Space Shuttle puts highly 
skilled workers' futures in doubt, without a clear path to a 
replacement vehicle. We hope we will have such a path, but we do not 
have one at the moment that we can truly rely on.
    To the Administration's credit, they have initiated a review of the 
country's human space flight programs, and they have selected the right 
man to lead that effort in Norm Augustine. But he and his team must be 
free to look at all available options and feel free to recommend the 
best approach forward, or their work will be in vain and we will still 
be searching for an answer that works.
    We have got to find ways to minimize the gap in U.S. human 
spaceflight capability. Not simply because we believe the country 
should have that capability--though that's important--but because we 
have a highly skilled and dedicated workforce that makes U.S. human 
spaceflight happen, and we must not risk losing that work force, and 
seeing them forced to permanently leave the very kinds of jobs that can 
most directly serve to benefit the country and our economy.
    Whether the solution requires keeping the Shuttle flying for some 
period of time to help us make better use of the newly-completed 
International Space Station, or accelerating a commercially-developed 
alternative, or some other means, we cannot afford, as a country, to 
surrender our long-held leadership in space exploration.
    I will have questions for the record to focus on some if these 
challenges, and I look forward to the chance to discuss some of them, 
and some of the answers, with you today, Mr. Scolese.
    Thank you again, in advance, for your testimony.

    Senator Nelson. What we are going to do is put your 
statement in the record as well. So if you do not mind, we will 
just go on and start our questions.
    Mr. Scolese. That is perfectly fine.
    [The prepared statement of Mr. Scolese follows:]

Prepared Statement of Christopher Scolese, Administrator (Acting), NASA
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2010 budget 
request for NASA. The President's FY 2010 budget request for NASA is 
$18.686 billion. The FY 2010 request represents an increase of $903.6 
million above the amount provided for NASA in the FY 2009 Omnibus 
Appropriations Act (P.L. 110-8). The FY 2010 budget does a number of 
things: it supports the Administration's commitment to deploy a global 
climate change research and monitoring system; it funds a strong 
program of space exploration involving humans and robots with the goal 
of returning Americans to the moon and exploring other destinations; 
and it supports the safe flight of the Space Shuttle to complete 
assembly of the International Space Station by the Space Shuttle's 
planned retirement.

Highlights of the FY 2010 Budget Overview
    With the FY 2010 budget request, NASA advances global climate 
change research and monitoring. The NASA investment in Earth Science 
research satellites, airborne sensors, computer models and analysis has 
revolutionized scientific knowledge and predictions of climate change 
and its effects. Using the National Research Council's recommended 
priorities for space-based Earth Science research as its guide, NASA 
will develop new space-based research sensors in support of the 
Administration's goal to deploy a global climate research and 
monitoring system. NASA will work to deploy these new sensors 
expeditiously while coordinating with other Federal agencies to ensure 
continuity of measurements that have long-term research and 
applications benefits.
    The FY 2010 NASA request funds a robust program of space 
exploration involving humans and robots. NASA's astronauts and robotic 
spacecraft have been exploring our solar system and the universe for 
more than 50 years. The Agency will create a new chapter of this legacy 
as it works to return Americans to the Moon by 2020. NASA also will 
send a broad suite of robotic missions to destinations throughout the 
solar system and develop a bold new set of astronomical observatories 
to probe the mysteries of the universe, increasing investment in 
research, data analysis, and technology development in support of these 
goals.
    With the FY 2010 request, NASA will complete the International 
Space Station (ISS) and advance the development of new space 
transportation systems and the unique scientific research that can be 
conducted onboard the ISS. The FY 2010 budget request funds for the 
safe flight of the Space Shuttle to complete the ISS, incorporates an 
additional flight to deliver the Alpha Magnetic Spectrometer (AMS) to 
the ISS, and then retires the Shuttle. NASA is committed to completing 
these nine remaining scheduled Shuttle flights, including the current 
mission underway to service the Hubble Space Telescope, which we 
believe can be accomplished by the end of 2010. Funds freed from the 
Shuttle's retirement will enable the Agency to support development of 
systems to deliver people and cargo to the ISS and the Moon and explore 
other destinations. As part of this effort, NASA will stimulate 
private-sector development and demonstration of vehicles that may 
support the Agency's human crew and cargo requirements for ISS. In 
addition, the Agency will continue to utilize the ISS, the permanently 
crewed facility orbiting Earth that enables the Agency to develop, 
test, and validate critical space exploration technologies and 
processes, and to conduct microgravity research. NASA also will 
continue to coordinate with international partners to make this 
platform available for other government entities, commercial industry, 
and academic institutions to conduct research.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of planned 
U.S. human space flight activities, with the goal of ensuring that the 
Nation is on a vigorous and sustainable path to achieving its boldest 
aspirations in space. This review will be conducted by a blue-ribbon 
panel of outside experts chaired by Norman R. Augustine. The panel will 
present its results in time to support an Administration decision on 
the way forward by August 2009. This Review of U.S. Human Space Flight 
Plans will examine ongoing and planned NASA human space flight 
development activities, as well as potential alternatives, and present 
options for advancing a safe, innovative, affordable, and sustainable 
human space flight program in the years following completion of the 
current Space Shuttle manifest and retirement. The independent review 
panel will seek input from Congress, the White House, the public, 
industry, and international partners. In addition, the review will 
examine the appropriate amount of R&D and complementary robotic 
activities needed to make human space flight activities most productive 
and affordable over the long term, as well as appropriate opportunities 
for international collaboration. It will also evaluate what 
capabilities would be enabled by each of the potential architectures 
considered. And it will evaluate options for extending International 
Space Station operations beyond 2016. We will keep the Congress 
informed, as appropriate, with the progress of the review.
    It is important to note that the President has submitted a FY 2010 
budget request for NASA Exploration Systems of $3.963 billion, an 
increase of $457.6 million above the FY 2009 Omnibus Appropriations 
level. During the review, the NASA workforce will continue to focus on 
the safe flight and operation of the Space Shuttle and ISS, and 
continue to work on all current exploration projects, including Ares I, 
Orion, and Commercial Crew and Cargo efforts.
    The President's FY 2010 budget request includes $507 million for 
Aeronautics Research, renewing NASA's commitment to cutting-edge, 
fundamental research in traditional and emerging disciplines to help 
transform the Nation's air transportation system and to support future 
aircraft. NASA research will increase airspace capacity and mobility, 
enhance aviation safety, and improve aircraft performance while 
reducing noise, emissions, and fuel consumption. The Integrated Systems 
Research Program, a new program beginning in FY 2010, will conduct 
research at an integrated system-level on promising concepts and 
technologies and explore, assess, and demonstrate the benefits in a 
relevant environment.
    Finally, consistent with Administration priorities, NASA is 
developing plans to stimulate innovation and increase investments in 
technologies for the future while ensuring that nearer-term Agency 
commitments are met.

NASA Initial FY 2009 Operating Plan and Recovery Act Funding
    Before I highlight key accomplishments and plans for activities 
across the Agency, I would like to summarize NASA's initial FY 2009 
Operating Plan, including Recovery Act funding, as recently submitted 
to the Subcommittee. The initial FY 2009 Operating Plan is $18,784.4 
million, or $1,170.2 million above the President's FY 2009 request, 
which reflects an increase of $168.2 million in the regular 
appropriation and $1,002.0 million in the Recovery Act. NASA is 
appreciative of the action by the Committees on Appropriations and 
Congress in providing regular appropriations for the Agency with full 
funding for Science, Aeronautics, Exploration, Space Shuttle, ISS, and 
Education. This total FY 2009 appropriations level, with minor 
adjustments within the total, will enable NASA to meet critical 
priorities, in accordance with the direction from the Congress and the 
President. NASA also appreciates the efforts by the Committees to 
include funding for NASA in the Recovery Act. This funding will help 
NASA achieve programmatic goals in Science, Exploration and 
Aeronautics, and repair damage done to the NASA Johnson Space Center 
during Hurricane Ike, and support national recovery goals.
    NASA has allocated the $1,002.0 million in Recovery Act funds as 
follows:

  <bullet> Science, $400.0M

    <ctr-circle> Earth Science, $325.0M

    <ctr-circle> Astrophysics, $75.0M

  <bullet> Aeronautics, $150.0M

  <bullet> Exploration, $400.0M

    <ctr-circle> Constellation Systems, $250.0M

    <ctr-circle> Commercial Crew and Cargo, $150.0M

  <bullet> Cross Agency Support, $50.0M

  <bullet> Inspector General, $2.0M

    I would be happy to address the objectives to which NASA is 
applying the Recovery Act funds in detail.
Science
    NASA's Science Mission Directorate continues to expand humanity's 
understanding of our Earth, our Sun, the solar system and the universe 
with 57 science missions in operation and 31 more in development. The 
Science budget funds these missions as well as the research of over 
3,000 scientists and their students across the Nation. The President's 
FY 2010 request for NASA includes $4,477.2 million for Science.
    The Science budget request includes $1,405.0 million for Earth 
Science in FY 2010, and steadily increases Earth Science funding in the 
outyears. NASA's 15 Earth Science missions in operation provide a large 
share of the global observations used for climate change research in 
the United States and elsewhere. This year, NASA's Earth Science 
satellites enabled research to understand how changes both in the 
tropics and in Arctic sea ice are changing ocean biology globally. NASA 
also recently conducted the first Ice Bridge aircraft campaign to 
demonstrate a new airborne laser capability to bridge the gap in time 
between ICESats 1 and 2. In FY 2010, NASA plans to launch the Glory 
mission to map atmospheric aerosols and continue the long record of 
solar influences on climate, and the Aquarius mission to provide the 
first global measurements of sea surface salinity. NASA will complete 
development of the NPOESS Preparatory Project and continue development 
of the Global Precipitation Mission and the Landsat Data Continuity 
Mission (LDCM). The request fully funds development of a Thermal Infra-
red Sensor (TIRS) at a total cost of approximately $150-175 million. A 
decision whether to fly TIRS on LDCM or another spacecraft will be made 
this summer; meanwhile, funding for TIRS is carried within the LDCM 
budget. The launch vehicle failure of the Orbiting Carbon Observatory 
(OCO) was a significant loss to the climate science communities, and 
NASA is assessing options to recover from that loss; we will inform the 
Congress of the results of these studies when they become available. 
NASA is continuing to work aggressively to implement the 
recommendations of the National Research Council Decadal Survey for 
Earth Science. The first two Decadal Survey missions, SMAP and ICESat-
II, will continue formulation in FY2010, and the next two, DESDynI and 
CLARREO, will be accelerated and transition to formulation. NASA also 
expects to issue its first Venture-class Announcement of Opportunity 
later this year, implementing another important decadal survey 
recommendation.
    The FY 2010 Science budget request includes $1,346.2 million for 
Planetary Science. NASA's Planetary Science missions continue to return 
images and data from the far reaches of the Solar System. This year, 
the Mars Phoenix Lander completed its mission, conducting the first 
chemical test providing evidence of water ice on another planet. 
MESSENGER returned stunning imagery of portions of the planet Mercury 
never before seen. The Cassini spacecraft continues to provide un-
paralleled science of the Saturnian system; the spacecraft flew within 
25km of Enceladus viewing the ejecting plumes and surface, and data 
from 19 fly-bys of Titan enabled creation of a radar map showing 3-D 
topography revealing 1,200-meter (4,000-foot) mountain tops, polar 
lakes, vast dunes, and thick flows from possible ice volcanoes. 
Development is continuing on the Juno mission to Jupiter for launch in 
2011. NASA and ESA jointly announced they will work together on a 
Europa Jupiter System mission as the next outer planets flagship 
mission. The rovers Spirit and Opportunity continue to study the 
Martian surface and have exceeded their fifth year of successful 
operations. NASA is continuing development of the Mars Science 
Laboratory (MSL) for launch in 2011 and selected MAVEN, a Mars aeronomy 
mission, as the next Mars Scout mission for launch in 2013. NASA has 
integrated its lunar science research program with the Lunar Precursor 
Robotic Program into a single Lunar Quest Program under the Science 
Mission Directorate, which includes the LADEE mission, the U.S. nodes 
of the ILN, and a new virtual university research collaboration called 
the NASA Lunar Science Institute. The Moon Mineralogy Mapper (M3) was 
launched aboard Chandrayaan-1 and has begun making scientific 
observations of the Moon's composition. Development is continuing on 
the GRAIL mission to map the Moon's gravity field for launch in 2011. 
NASA has issued an Announcements of Opportunity for the next New 
Frontiers mission, and will do so for the next Discovery mission later 
this year.
    The FY2010 Science budget request includes $1,120.9 million for 
Astrophysics. 2009 is the International Year of Astronomy, and NASA's 
Astrophysics program will deploy exciting new capabilities for studying 
the cosmic frontier. The Kepler mission, launched in March, is NASA's 
first mission dedicated to the search for Earth-like planets in our 
galaxy. ESA will launch the Herschel and Planck missions in April, 
carrying several NASA instruments, to study the far-infrared sky and 
the cosmic microwave background. The final Hubble Space Telescope 
serving mission aboard STS-125, currently in progress, is upgrading the 
observatory to its peak scientific performance. Late this calendar 
year, NASA plans to launch the Wide-field Infrared Survey Explorer 
(WISE) as part of its highly successful Explorer Program, following on 
the recent successes of the Fermi Gamma-ray Space Telescope (launched 
as GLAST in July 2008), which has provided the best-ever view of the 
gamma-ray sky revealing energetic sources in our solar system, our 
galaxy, and galaxies billions of light-years away. Development is 
continuing on the James Webb Space Telescope, which passed its 
Confirmation Review in 2008 and has an Agency commitment to launch in 
2014. Development continues on the NuSTAR mission to study black holes 
for launch in 2011, along with a Soft X-ray Spectrometer to fly on 
Japan's Astro-H mission in 2013. Development continues on the airborne 
Stratospheric Observatory for Infrared Astronomy or SOFIA, which will 
conduct open door flight tests in 2009 and early science flights in 
2010, with planned full operational capability in 2014. Conceptual 
design is continuing for ambitious future mission concepts to 
investigate the origins of planets, stars, and galaxies; to search for 
Earth-like planets around nearby stars; and to examine the nature of 
dark energy, dark matter, gravity waves, and black holes. These and 
other mission concepts are currently under consideration by the NRC's 
decadal survey for Astrophysics, or Astro2010, which will be completed 
during 2010, and will provide recommendations to NASA on the science 
community's highest priority science questions and strategic missions 
for the next decade.
    The FY 2010 Science budget request includes $605.0 million for 
Heliophysics. The fleet of NASA Heliophysics missions strategically 
placed throughout the solar system is providing researchers the first 
ever solar system-wide view of solar influences on the Earth and other 
planets, and the dynamic structures of space itself. This virtual 
``Great Observatory'' is in place and functioning for the next solar 
magnetic activity cycle, and has already detected the first signs of a 
new solar maximum anticipated for 2011-2012. Late this year or early 
next, the launch of Solar Dynamics Observatory will add to this fleet 
the capability to observe the solar atmosphere to a depth one-third of 
the Sun's radius to study the flow of plasmas that generate magnetic 
fields and the sudden changes that produce coronal mass ejections that 
we experience as space weather. Also this year, NASA plans to select 
two Small Explorer (SMEX) missions in response to an Announcement of 
Opportunity issued in 2008, which could be either Heliophysics or 
Astrophysics missions depending on the proposals selected. Development 
of the Radiation Belt Storm Probes mission to study the interactions of 
space weather events with Earth's magnetic field is continuing for 
launch in 2012. The Magnetosphere Multi-Scale mission to observe the 
processes of magnetic reconnection, energetic particle acceleration, 
and turbulence in Earth's magnetosphere will undergo a Confirmation 
Review this year for a planned launch in 2014. Finally, NASA is 
continuing early formulation work on the Solar Probe-Plus mission that 
will travel into, and sample, the near-Sun environment to probe the 
origins of the solar wind.

Aeronautics Research
    NASA's FY 2010 budget provides $507 million for Aeronautics 
Research. Over the past year, the Aeronautics Research Mission 
Directorate has continued to pursue long-term, innovative, and cutting- 
edge research that develops revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and more efficient national air transportation system. NASA 
Aeronautics Research also plays a vital role in supporting NASA's space 
exploration activities.
    A primary goal across Aeronautics Research programs is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements (SAAs) for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. To date, 68 SAAs have 
been established with industry partners across all programs and 375 
NRAs have been awarded to academia, industry and non-profit 
organizations. NASA Aeronautics has continued to collaborate with the 
Joint Planning Development Office (JPDO), Federal Aviation 
Administration (FAA), U.S. Air Force, Army, and other government 
organizations.
    New for FY 2010, $62.4 million has been provided for the Integrated 
Systems Research Program (ISRP) to conduct research at an integrated 
system-level on promising concepts and technologies and explore, 
assess, or demonstrate the benefits in a relevant environment. The 
research in this program will be coordinated with on-going, long-term, 
foundational research within the three other research programs, and 
will be closely coordinated with other Federal Government agency 
efforts. The project within ISRP will be the Environmentally 
Responsible Aviation (ERA) Project, a ``green aircraft initiative,'' 
that will explore and assess new vehicle concepts and enabling 
technologies through system-level experimentation to simultaneously 
reduce fuel burn, noise, and emissions. The ERA project will transfer 
knowledge outward to the aeronautics community so that aircraft and 
propulsion system manufacturers can confidently transition these 
technologies into new products, as well as transfer knowledge inward to 
the Fundamental Aeronautics Program when the need for further 
development at a foundational level is identified.
    NASA's Airspace Systems Program (ASP) has partnered with the JPDO 
to help develop concepts, capabilities and technologies that will lead 
to significant enhancements in the capacity, efficiency and flexibility 
of the National Airspace System. For FY 2010, ASP has been reorganized 
from the NextGen Airspace and NextGen Airportal projects into the 
NextGen Concepts and Technology Development project and the NextGen 
Systems Analysis, Integration and Evaluation project. The distinctions 
between airport operations, terminal-area operations and en-route 
operations were sometimes confusing, leading to time expended 
determining the line of demarcation between the responsibilities of the 
two projects. A more significant distinction is the development of air 
traffic management concepts and the technologies that enable air 
traffic management improvements and the evaluation of these concepts 
and technologies at a system level. The previously planned work on 
airspace concepts, technologies and systems will continue. This new 
project structure is better aligned to the nature of the work being 
performed. A notable accomplishment for ASP is the successful 
completion, by NASA researchers in collaboration with academia and the 
FAA, of a series of human-in-the-loop experiments that explored 
advanced concepts and technology for separation assurance, which 
ensures that aircraft maintain a safe distance from other aircraft, 
terrain, obstacles, and certain airspace not designated for routine air 
travel. The technology being developed by NASA and its partners is 
critical to relieving air-traffic controller workload, a primary 
constraint on airspace capacity that is expected to increase in coming 
years. In the future, this Program will continue to develop new 
technologies to solve important problems such as surface traffic 
planning and control, and initial algorithms for airport arrival and 
departure balancing as well as developing traffic flow management 
concepts for increased efficiencies at the regional and national levels 
for different planning intervals.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
all aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. For FY 2010, all ARMD research 
into planetary entry, descent and landing (EDL) has been consolidated 
into the Hypersonics project in FAP. EDL is an integral part of many 
space missions and is not easily divided into distinct hypersonic and 
supersonic phases. This change will provide more focus to technical 
developments and will also yield technical management efficiencies. The 
FAP program has supported the testing of various new concepts that will 
help enable much improved capabilities for future vehicles. For 
example, wind- tunnel testing was conducted for several promising 
powered lift concepts. Powered lift concepts increase lifting force on 
an aircraft at slow speeds (e.g., at take-off and landing) without 
increasing drag under cruise conditions. Successful use of the concepts 
will enable short take-off and landings on runways less than 3000 feet, 
which will increase next-generation air transportation system capacity 
through the use of shorter fields and improved low-speed 
maneuverability in airport terminal areas. Testing was also completed 
for a Smart Material Actuated Rotor Technology (SMART) helicopter 
rotor, which offers the potential for significant noise and vibration 
reduction in rotorcraft. Future work includes technologies and advanced 
tools to evaluate the trades between noise, emissions, and performance 
of future aircraft entering service in the 2012-2015 timeframe. 
Additionally, with the transfer of technologies to be matured to 
system-level within ISRP, the Subsonic Fixed Wing (SFW) project is 
streamlining its research content. This is enabling new efficiencies 
across the foundational disciplines remaining in the project. The 
integrated system-level research in this program will be coordinated 
with on-going, long-term, foundational research within the three other 
research programs, and will focus specifically on maturing and 
integrating technologies in major vehicle systems and subsystems for 
accelerated transition to practical application.
    NASA's Aviation Safety Program (AvSP) continues to develop tools 
and technologies to improve on today's incredibly safe air 
transportation system, while ensuring that future technologies can be 
safely incorporated to the system. Examples of advances that support 
this development include NASA's ongoing and new research into aircraft 
icing. For example, with current knowledge we cannot extrapolate how 
ice forms on a straight wing such as found on a turbo-prop to how it 
will form on a swept wing, or a radically new aircraft configuration. 
The Aviation Safety Program is tackling this with a combination of 
computational models and experiments in NASA's Icing Research Tunnel. 
We are establishing that, in high and cold flight conditions, ice can 
form deeper in jet engines than previously understood. NASA is working 
collaboratively with the FAA, industry and international partners, such 
as the National Research Council of Canada, to conduct tunnel tests of 
the underlying physics, to fly our instrumented S-3 Viking into such 
engine icing conditions, and design upgrades to our Propulsion System 
Lab in which jet engines may be tested in detail. Additional future 
work in Aviation Safety includes addressing gaps in validation and 
verification of critical flight software, developing new data-analysis 
capabilities to mine aviation operational data for safety issues, 
examining the safety of new vehicle systems and structures, and 
tackling the biggest human factors issues in the NextGen flightdeck.
    NASA's Aeronautics Test Program (ATP) is focused on ensuring a 
healthy suite of facilities and platforms to meet the Nation's testing 
needs including the development of new test instrumentation and test 
technologies. As part of its continuous efforts to improve facility 
operational efficiencies, ATP initiated the National Force Measurement 
Technology Capability, to address the severe erosion of NASA's 
capability to utilize strain gage balances in wind tunnel testing. The 
National Partnership for Aeronautics Testing, a strategic partnership 
between NASA and the Department of Defense (DOD), recently commissioned 
a study of government-owned, mid-to-large supersonic facilities 
necessary to fulfill future air vehicle test requirements. The Program 
will continue to develop a long-term strategic approach that aligns the 
NASA and DOD facilities to meet future requirements with the right mix 
of facilities and appropriate investments in facility capabilities.

Exploration Systems
    Human space flight is important to America's political, economic, 
technological and scientific leadership. In the span of a few short 
years, NASA has already taken long strides in the formulation of 
strategies and programs to develop a robust program of space 
exploration. These critical steps will allow our Nation to build the 
next-generation space flight vehicles that will carry humans and 
deliver cargo to the ISS and the Moon, and on to other destinations in 
our solar system. The President's FY 2010 budget request for 
Exploration Systems is $3,963.1 million, an increase of $457.6 million 
above the FY 2009 appropriation and $225.4 million above the planned FY 
2010 level in last year's request. Based on the Recovery Act funds and 
the President's increased budget request for FY 2010, the Exploration 
Systems budget plan includes about $630 million more in FY 2009 and FY 
2010 than the previous plan. At this critical juncture, full funding at 
the President's requested level is essential for expediting development 
of new U.S. human space flight systems to support the International 
Space Station and explore the Moon and other destinations beyond low-
Earth orbit.
    The Constellation Program will apply additional Recovery Act funds 
to critical activities related to the successful completion of the 
Orion, Ares I and Ground Operations projects. The Commercial Crew and 
Cargo Program plans to use Recovery Act funds to stimulate efforts 
within the private sector in order to develop and demonstrate 
technologies that enable commercial human space flight capabilities--
efforts that are intended to foster entrepreneurial activity leading to 
job growth in engineering, analysis, design, and research, and to 
economic growth as capabilities for new markets are created.
    Following the Review of U.S. Human Space Flight activities, the 
Administration will provide an updated request for Exploration 
activities, as necessary. In the meantime, NASA is proceeding as 
planned with current Exploration activities, including Ares I, Orion, 
Commercial Crew and Cargo efforts, and lunar systems.
    During the past year, NASA Exploration Systems continued to make 
significant progress in developing the next-generation U.S. human space 
flight vehicles and their associated ground and mission support 
systems. In the next several weeks, the first lunar robotic mission, 
the Lunar Reconnaissance Orbiter and the Lunar Crater Observation 
Sensing Satellite spacecraft, will be launched from the Cape Canaveral 
Air Force Station aboard an Atlas V, which will help NASA scout for 
potential lunar landing and outpost sites. Later this year, two major 
test flights for the Constellation Program will be conducted: Ares I-X 
is the first developmental test flight to support the design of the 
Ares I Crew Launch Vehicle; and the Pad Abort 1 (PA-1) is the first 
test of the Launch Abort System to be used on the Orion Crew 
Exploration Vehicle. NASA will continue to work with other nations and 
the commercial sector to coordinate planning, leverage investment, and 
identify opportunities for specific collaboration on Exploration 
activities.
    The Constellation Program continues to complete the formulation 
phase of its projects--in particular Ares I, Orion, and major ground 
facilities. Major development work is underway, contracts are in place; 
and we have a dedicated group of civil servants and contractors who are 
all working hard to accomplish the Constellation Program's objectives. 
So far, NASA engineers have conducted about 6,500 hours of wind tunnel 
testing on subscale models of the Ares I to simulate how the current 
vehicle design performs in flight. These wind tunnel tests, as well as 
the Ares I-X test flight, will lay the groundwork for maturing the Ares 
I final design prior to its Critical Design Review (CDR). When launched 
later this year from NASA's Kennedy Space Center in Florida, the Ares 
I-X will climb about 25 miles in a two-minute powered test of the First 
Stage performance and the First Stage separation and parachute recovery 
system. Work on the Orion Project also continues to advance. Recently, 
NASA conducted testing of the water recovery process for the Orion 
capsule, and NASA also selected the material for Orion's heat shield. 
Later this year, Orion's PA-1 test will take place at White Sands 
Missile Range, New Mexico. PA-1 will demonstrate the Launch Abort 
System's ability to pull crew to safety should there be an emergency 
while the Orion and Ares I stack is still on the launch pad.
    In September 2008, Ares I completed a key milestone with its 
Preliminary Design Review (PDR). PDR is the final step of the initial 
design process, and thereby a crucial milestone during which the 
overall project verifies that the preliminary design can meet all 
requirements within acceptable risk limits and within cost and schedule 
constraints, and identifies technical and management challenges and 
addresses approaches for eliminating or mitigating them. This fall, the 
Orion is expected to have progressed to the point of completing PDR, 
and obtaining Agency approval to proceed to Critical Design Review 
(CDR). Current plans call for Ares I to progress to the point of 
obtaining Agency approval by early 2010 to proceed to CDR.
    As part of the Commercial Crew and Cargo Program and its associated 
Commercial Orbital Transportation Services (COTS) cargo projects, NASA 
is completing its promised $500 million investment to the two funded 
COTS partners, Space Exploration Technologies Corporation (SpaceX) of 
El Segundo, California, and Orbital Sciences Corporation (Orbital) of 
Dulles, Virginia. Recently, SpaceX successfully operated the full 
complement of the first stage engines of the Falcon 9, the SpaceX 
launch vehicle. Orbital continues to progress in achieving engineering 
milestones, and completed its PDR earlier this month. In addition, NASA 
has two non-funded COTS partners.
    The transition of NASA facilities, infrastructure, property, and 
personnel from the Space Shuttle Program to the Constellation Program 
continues to be a major activity. This joint effort between the Space 
Operations and Exploration Systems Mission Directorates includes the 
utilization and disposition of resources, including real and personal 
property; personnel; and processes in order to leverage existing 
Shuttle and Space Station assets for NASA's future Exploration 
activities.
    NASA's Advanced Capabilities programs include the Human Research 
Program (HRP) and the Exploration Technology Development Program 
(ETDP). These programs continue to reduce risks for human explorers of 
the Moon and beyond by conducting research and developing new 
technologies to aid future explorers. HRP focuses on the highest risks 
to crew health and performance during exploration missions while also 
developing and validating a suite of human health countermeasures to 
facilitate long-duration space travel. For example, NASA is conducting 
research to better understand the effect of space radiation on humans 
and to develop effective mitigation strategies. This year, HRP 
delivered a space radiation risk assessment tool, provided cockpit 
display design requirements for the Orion spacecraft, and provided 
design requirements for the new Constellation Space Suit System. HRP is 
also conducting research onboard the ISS with regard to: the cardiac 
structure and function of astronauts; radiation shielding technologies; 
and, the effect that certain pharmaceuticals may have on the prevention 
of bone loss during long-duration missions. ETDP will conduct a range 
of activities, including testing cryogenic hydrogen and methane 
propulsion systems for future missions; developing a small pressurized 
rover for transporting astronauts on the lunar surface; and 
demonstrating the capability to produce oxygen from lunar soil. ETDP 
also is conducting experiments on the Space Station to investigate the 
behavior of fluids and combustion in microgravity, and operating 
instruments to monitor atmospheric contaminants on the Space Station.

Space Operations
    The FY 2010 budget request includes $6,175.6 million for Space 
Operations.
    It is an exciting time for NASA's Space Shuttle Program. At this 
moment, the astronauts of Shuttle Atlantis are in orbit on STS-125, the 
final mission to service the Hubble Space Telescope. We anticipate that 
the work they are doing, which includes upgrading the Hubble's 
instruments, should extend the observatory's operational life several 
years. The President's FY 2010 budget funds the safe flight of the 
Space Shuttle to conduct its remaining missions, including the AMS 
flight and completing assembly of the ISS. NASA is committed to 
completing the eight remaining scheduled Shuttle flights, which we 
believe can be accomplished by the end of 2010. These Shuttle flights 
will leave the ISS in a configuration to support a broad portfolio of 
research and to receive and be maintained by commercial cargo services. 
The FY 2010 budget request includes $3,157.1 million for the Space 
Shuttle Program.
    NASA and its Russian, European, Canadian, and Japanese 
International Space Station partners are working together to realize 
one of the most inspiring dreams of the last 50 years: the 
establishment of a station in Earth orbit for the conduct of various 
types of research. We are now approaching two significant milestones. 
In May, the ISS will host its first six-person crew. The recent 
delivery of the Station's final set of solar arrays and other equipment 
by the crew of STS-119 represents the final step toward this goal. In 
June, the STS-127 mission will deliver the third and final component of 
the Japanese Kibo laboratory--the Kibo Exposed Facility. The addition 
of the Exposed facility enables the Kibo laboratory, with the European 
Columbus module and the U.S. Destiny module, to complete the three 
major international science labs on ISS, setting the stage for 
utilization of ISS as a highly capable microgravity research facility. 
The President's FY 2010 budget request includes $2,267.0 million for 
the ISS.
    The ISS will represent both an unparalleled international 
cooperative effort and a U.S. National Laboratory in orbit. Scientists 
will be able to conduct biomedical and engineering research from a 
unique vantage point. Some of the work will increase our knowledge of 
the effects of long-duration human space flight, which is critical for 
the design and operation of future human space vehicles, including 
those being developed under the Constellation Program to return U.S. 
astronauts to the Moon and explore other destinations. Other research 
will not be focused on space exploration at all, but may have 
significant applications right here on Earth. Medical research, for 
example, may be applicable to the development of vaccines; NASA's 
research into salmonella aboard the Space Shuttle and ISS has already 
increased our knowledge in this area. In the key areas of energy and 
the environment, the ISS serves as a daily demonstration of ``green'' 
technologies and environmental management techniques. The ISS receives 
120kW of power from its solar arrays to operate the Station and run 
experiments. The ISS environmental system is designed to minimize the 
amount of mass that has to be launched from Earth to support the 
Station, so recycling is a must. STS-119 supplied ISS with a 
replacement Distillation Assembly for Station's water recycling system, 
which is key for supporting a full six-person crew for extended periods 
of time. Given the central role science and technology play in our 
society, it is important that the United States maintain a leadership 
role in these fields. The availability of a research laboratory in the 
microgravity environment of space will support this aim.
    Another benefit from Space Shuttle missions and ISS research is 
reflected in the programs' ability to inspire the next generation of 
Americans. This was reflected recently in the delighted faces of 
students who participated in the uplinked phone call between President 
Obama and the crews of the ISS and STS-119 on March 24. The ISS will 
support the President's goal of making math and science education a 
national priority by demonstrating what can be accomplished through 
science and engineering, and by inspiring both teachers and students.
    NASA is relying on U.S. industry to develop vehicles to deliver 
supplies and experiments to the ISS. In December 2008, the Agency 
awarded two Commercial Resupply Services (CRS) contracts for the 
provision of this critical capability. Cargo resupply is important for 
the continued viability of ISS. In addition, the vendors involved will 
gain valuable experience in the development and operation of vehicles 
that can 1) fly to the ISS orbit; 2) operate in close proximity to the 
ISS and other docked vehicles; 3) dock to ISS; and, 4) remain docked 
for extended periods of time.
    The FY 2010 budget request includes $751.5 million for Space and 
Flight Support, which supports Space Communications and Navigation, 
Launch Services, Rocket Propulsion Testing, Crew Health and Safety, and 
the new Human Space Flight Operations programs.

Education
    The FY 2010 budget request for Education totals $126.1 million and 
furthers NASA's commitment to Science, Technology, Engineering, and 
Mathematics (STEM) education. NASA will continue its successes in 
developing a future aerospace work force, improving the technological 
competitiveness of our Nation's universities, attracting and retaining 
students in STEM disciplines, and engaging the public in NASA's 
missions. NASA will accomplish these goals by offering competitive 
research grants to universities, providing targeted educational support 
to Minority Serving Institutions, and strengthening curricula at two-
year community colleges. NASA's plans to streamline and centralize 
internship and fellowship application processes will realize cost 
savings and facilitate student access to information while attracting a 
wider, more diverse participant base. The Agency is also seeking new 
opportunities for student involvement in current space and aeronautics 
research missions and flight projects, including those using high 
altitude balloons, sounding rocket payloads, airborne sensors, and 
space satellites. NASA will further these efforts through a new 
project, Innovation in STEM Education, which will allow the Agency to 
investigate and offer opportunities for student and faculty to 
participate in NASA-related research. In coming months, the Agency will 
complete award announcements for competitive grant programs in K-12, 
global climate change, and informal education, and revise and issue new 
solicitations using FY 2009 funds.
    NASA will further pursue a goal to attract and retain students in 
STEM disciplines in the upcoming Fiscal Year. Last year, the 
Interdisciplinary National Science Program Incorporating Research & 
Education (INSPIRE) program engaged over 200 high schools in STEM 
areas, and NASA Explorer Schools conducted instructional and enrichment 
activities that reached over 105,000 students. The March 2009 STS-119 
mission also provided a unique educational opportunity as two Mission 
Specialists who are science teachers, Joe Acaba and Richard Arnold, 
were part of the crew. NASA Education continues to provide internships, 
fellowships, and research opportunities to help students and educators 
gain hands-on experiences in a range of STEM-related areas. These 
opportunities provide students with the motivation, inspiration, and 
experience needed to serve the Nation's current and future workforce 
needs. In FY 2008, the Agency provided more than 3,000 summer 
internships, reached 5,331 students through significant research 
experience or grants, and provided 139 grants to underrepresented and 
underserved institutions.
    NASA will also engage elementary and secondary school and informal 
education audiences by using Earth and deep space observations, the 
flight experience of Educator Astronaut Dorothy MetcalfLindenburger 
aboard STS-131, as well as future missions to the Moon and other 
destinations. New technologies such as social networks, Internet 
collaborations, a new virtual magnet school, and remote control of 
science instruments will expand and enhance these efforts. In FY 2010, 
NASA also plans to provide an online professional development system 
for students training to become educators, in-service teachers, and 
informal educators. Additionally, NASA will promote continuous public 
awareness of its mission and improvement to STEM literacy by partnering 
with informal education providers, which allows Agency partners to 
share the excitement of NASA missions with their visitors in meaningful 
ways.

Cross-Agency Support
    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency, but cannot be directly 
aligned to a specific program or project requirement. These important 
functions align and sustain institutional and program capabilities to 
support NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes Center Management 
and Operations, Institutional Investments, and Agency Management and 
Operations. The FY 2010 budget request includes $3,400.6 million for 
Cross Agency Support.
    Center Management and Operations funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects. The FY 2010 budget request includes $2.084 million for Center 
Management and Operations.
    Institutional Investments funds design and execution of non-
programmatic revitalization construction of facilities projects, 
demolition projects for closed facilities, and environmental compliance 
and restoration activities. The Construction of Facilities Program 
makes capital repairs and improvements to NASA's critical 
infrastructure to improve safety and security and improve NASA's 
operating efficiency by reducing utility usage. NASA continues to right 
size the infrastructure by demolishing facilities that are no longer 
needed. Emphasis has been placed on energy and water conservation. 
Currently, NASA has five buildings that are certified under the 
Leadership in Energy and Environmental Design (LEED) criteria, three 
additional buildings that are built and awaiting certification as LEED 
Silver facilities, and 13 buildings in various stages of design and 
construction as High Performance Buildings and are expected to be LEED-
certified when completed. The FY 2010 budget request includes $355.4 
million for Institutional Investments.
    NASA's FY 2010 request includes $961.2 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, 
Innovative Partnerships Program, and Strategic Capabilities Assets 
Program.

  <bullet> The FY 2010 budget request provides $412.7 million for 
        Agency Management, which supports executive-based, Agency-level 
        functional and administrative management requirements. Agency 
        Management provides for the operational costs of Headquarters 
        as an installation; institutional and management requirements 
        for multiple Agency functions; assessment and evaluation of 
        NASA program and mission performance; strategic planning; and 
        independent technical assessments of Agency programs.

  <bullet> The FY 2010 budget request provides $183.9 million for 
        Safety and Mission Success activities required to continue 
        strengthening the work force, training, and strengthening the 
        fundamental and robust cross-checks applied on the execution of 
        NASA's mission, and to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The engineering, safety and mission assurance, health and 
        medical independent oversight, and technical authority 
        components are essential to NASA's success and were established 
        or modified in direct response to many of the key Challenger 
        and Columbia accident board recommendations for reducing the 
        likelihood for future accidents. Included under Safety and 
        Mission Success is the Software Independent Verification and 
        Validation program.

  <bullet> The FY 2010 budget request for Agency Information Technology 
        Services is $150.4 million, which encompasses cross-cutting 
        services and initiatives in IT management, applications, and 
        infrastructure necessary to enable the NASA Mission and improve 
        security, integration and efficiency of Agency operations. NASA 
        plans significant emphasis on continued implementation of five 
        major Agency-wide procurements to achieve the following: (1) 
        consolidation of IT networks leading to improved network 
        management, (2) consolidation of desktop/laptop computer 
        services and mobile devices to improve end-user services, (3) 
        data center consolidation to provide more cost-effective 
        services, (4) Agency public website management to improve 
        access to NASA data and information by the public, and (5) 
        Agency business systems development and maintenance to provide 
        more efficient and effective business systems. NASA will also 
        continue to improve security incident detection, response, and 
        management through the Security Operations Center.

  <bullet> The request for the Innovative Partnerships Program (IPP) is 
        $184.8 million. IPP works with all four Mission Directorates to 
        provide innovations meeting NASA's technology needs, and 
        transfers NASA technology for broad Spinoff applications that 
        improve quality of life and contribute to economic growth. 
        Included in the IPP portfolio are: NASA's SBIR/STTR Programs 
        seeking out innovative high-technology small businesses; a new 
        Innovative Technology Project seeking high-impact revolutionary 
        research and technology projects; a Seed Fund to address 
        technology needs through cost-shared, joint-development 
        partnerships; use of commercial flight services by the FAST 
        program to demonstrate new technologies; Innovation Ambassadors 
        to exchange ideas; and the Centennial Challenges prize program 
        for the citizen inventor. IPP seeks partnerships through 
        offices at all 10 NASA Centers.

  <bullet> Finally, NASA is requesting $29.4 million in FY 2010 for the 
        Strategic Capabilities Assets Program (SCAP). This program 
        funds the costs required to sustain key Agency test 
        capabilities and assets, such as an array of flight simulators, 
        thermal vacuum chambers, and arc jets, to ensure mission 
        success. SCAP ensures that assets and capabilities deemed vital 
        to NASA's current and future success are sustained in order to 
        serve Agency and national needs. All assets and capabilities 
        identified for sustainment either have validated mission 
        requirements or have been identified as potentially required 
        for future missions.

Conclusion
    The President's FY 2010 budget request for NASA supports the 
Administration's commitment to deploy a global climate change research 
and monitoring system, funds a robust program of space exploration 
involving humans and robots with a goal to return Americans to the Moon 
by 2020 and explore other destinations, and funds the safe flight of 
the Shuttle to complete assembly of the ISS through its retirement, 
planned for the end of 2010. The FY 2010 budget request funds continued 
use of the ISS to enable the Agency to develop, test, and validate 
critical exploration technologies and processes and, in coordination 
with our international partners, to make the ISS available support 
other government entities, commercial industry and academic 
institutions to conduct unique research in the microgravity environment 
of space. It will also stimulate private sector development and 
demonstration of vehicles that may support NASA's cargo and crew 
requirements. And it renews NASA's commitment to aeronautics research 
to address fundamental aeronautics, aviation safety, air traffic 
management, and mitigating the impact of aviation on the environment. 
NASA's diverse portfolio of science, technology, engineering and 
mathematics (STEM) educational activities is also aligned with the 
Administration's goal of improving American innovation and global 
competitiveness. NASA looks forward to working with the Subcommittee on 
implementation of the detailed FY 2010 budget request.
    Mr. Chairman, thank you for your support and that of this 
Subcommittee. I would be pleased to respond to any questions you or the 
other Members of the Subcommittee may have.

    Senator Nelson. Senator Vitter?
    Senator Vitter. Great. Again, thank you, Mr. Administrator, 
for being here. We had a good meeting in my office recently, 
and thank you for that. I am going to cover a little bit of 
that ground because I think it is important to discuss 
publicly.
    As I said in my office, I applaud the appointment of Norm 
Augustine who has enormous background and credibility to lead 
the current review that is going on right now. But I am very 
concerned about the constraint he was formally given. He was 
told basically to review and look at options but with the 
absolute constraint that the present budget numbers would be 
honored and basically told not to consider anything above that 
line.
    Now, we obviously need to be aware of costs and that needs 
to be part of the discussion. I am not disputing that, but I 
think not to consider anything above a certain arbitrary line, 
even slightly above it--if you read the directive, that is what 
it says. I hope it is not acted upon in that spirit, but that 
is what it says. How can that review be full and adequate and 
completely productive with that arbitrary budget constraint?
    Mr. Scolese. Well, I think you characterized the intent of 
the review accurately, which is to go off and look at human 
space flight from now forward, look at extending the Space 
Station, and developing options to accomplish the goals of 
returning humans to the moon, getting them out of low Earth 
orbit, and supporting the Space Station.
    Yes, there is, as you said, a fiscal constraint to stay 
within the budget. But I think it is fair to say that Norm 
Augustine and the team is going to be looking at it, and if 
they cannot find a solution that fits within the budget or an 
option that fits within the budget, then I am sure they will 
provide other options.
    Senator Vitter. Well, I mean, it seems to me there have to 
be options that fit within the budget, but that in and of 
itself is a very constrained question. It seems to me the 
better question is what are all of the options, what are the 
costs of all of the options, and then we can make a reasonable 
cost-benefit judgment based on what the option accomplishes and 
what the cost is. And there could be some very good options 
that might be slightly above that line.
    Do you think in practice he will consider all of those 
options?
    Mr. Scolese. I think he will consider all of those options. 
Which ones he will bring forward I cannot say. But I do think 
he will consider all those options.
    Senator Vitter. Well, as I said in my office, I hope in 
practice the review is a little different than the directive on 
paper because on paper the review basically says ignore 
anything above this arbitrary dollar line. I think that is very 
limiting and counterproductive.
    Now, obviously, cost has to be considered, but let us 
understand all the reasonable options, the true cost of all the 
reasonable options, and then make good decisions.
    Mr. Scolese. I understand that, yes, sir.
    Senator Vitter. The second big concern that we talked about 
in my office is that while this review is going on--and 
admittedly, it is supposed to report pretty quickly in August, 
but while it is going on, contractors around the country, 
including Michoud in Louisiana, are proceeding with plans, in 
some cases, to lay off folks or to give notice to folks, which 
are premised on the old Bush administration stated policy that 
we are not going to fly the Shuttle after 2010 basically no 
matter what.
    Now, that policy has changed, as I understand it, and the 
present policy is that we are going to fly all of the planned 
missions and we hope to fly them by 2010, but if it happens to 
slip a little bit, we will deal with it and we will still fly 
them.
    What assurances can you give us that that new directive has 
gone to the contractors and they are being asked to stop any 
actions in the next few months, which could basically get in 
the way of certain future options that Norm Augustine and his 
panel may very well suggest to us?
    Mr. Scolese. Certainly. First, let me say that flying the 
Shuttle safely is our number one priority. We must do that. In 
order to do that, we need the people, the people that have been 
supporting this program for years, continue to support the 
program, are making the mission that is flying today a success. 
So we need all of those people to be there and support the 
program right up until wheel-stop on the very last mission that 
flies, whenever that is.
    The way we are working that is, of course, working with our 
contractors and working internally to provide people with 
options, one, to retain the work force. We are trying, wherever 
possible, to give people opportunities to work on the next 
program, the Constellation program, Orion and Ares. So they are 
working Shuttle. They are also working Constellation 
activities. This way they know that when Shuttle comes to an 
end, they will have something to go to.
    We are also making sure that we have the workforce that we 
need for each element to support that last Shuttle flight. So 
we are retaining those people and those capabilities and those 
testing that we will need to fly that last one. And that we can 
do within NASA and we can make sure that those people are 
there.
    We are also working with the contractor community and 
talking to them to get retention bonuses so that people will 
stay on. That has not proven to be a problem. This workforce is 
extremely dedicated, very loyal to the program, as you all well 
know.
    In the interim, as we are working through all of these, I 
have spoken to Lockheed and there will be no more notices for 
layoffs at least until the fall when we get through the review 
with the Augustine review panel. We are working with them to 
minimize the amount of impact that will be coming by placing 
people on other contracts or retaining them in other activities 
within Lockheed. So we are working actively with the contractor 
community to retain the workforce and minimize the impacts.
    Senator Vitter. Specifically at Michoud in Louisiana--and I 
bring that up because I know a lot about it not because it is 
the only important thing, but just as an example. We were told 
yesterday that there will still be notices that were planned a 
long time ago in June and/or July. That is inconsistent with 
what you just said. So if we can figure out which is correct.
    Mr. Scolese. Well, I think there are two things being said. 
There were notices given earlier this year. Those will be 
effected in the June/July timeframe. Any new notice will be 
after that in the fall, and we are working with Lockheed to 
minimize the impact of those reductions.
    Senator Vitter. We will work with you to double check that, 
but that clarification would make sense. I just want to make 
sure that is what is going on and there are not new notices 
starting in June or July.
    Mr. Scolese. There are no new notices starting June or 
July.
    Senator Vitter. Great.
    Along the same vein, why would it not make sense for NASA, 
the Administration, the Congress, whomever, all of the above to 
reinstate the prohibition that expired on April 30, at least 
until we get the Augustine panel report?
    Mr. Scolese. Well, as you know, we started the Shuttle 
retirement back in 2005 and stopped production. We did not 
continue production of elements that we did not need to carry 
out the manifest, as we understood it. So it has been going on 
since then.
    The activities that we have done now is we have delivered 
the last tank or are in the process of delivering the last tank 
for the final Shuttle mission, as well as we are in the process 
of completing the engines for the final mission and other 
activities. So as we complete those activities, we need to stop 
because we do not have the materials to produce additional 
tanks.
    But what we are doing is we are making sure that we are 
keeping the people, the people that we need, to service those 
equipment, should there be a problem, to analyze issues, should 
there be an issue, and to maintain those until, as I said, the 
last flight. So it is not a complete stoppage, if you will. We 
are trying to do it in a very logical, methodical and sensible 
way so that we can be prepared to deal with any issue that may 
come up as we fly out the manifest.
    Senator Vitter. OK. That is all I have for now, Mr. 
Chairman.
    Senator Nelson. Thank you, Senator Vitter.
    Mr. Scolese, do you believe that there is any way that we 
can meet President Obama's commitment to a human mission to the 
moon by 2020, given the out-year numbers that came out last 
week from OMB?
    Mr. Scolese. We are still looking at that, but I can say 
very truthfully that it is going to be challenging to meet that 
to the original plan that we had before.
    Senator Nelson. I agree. I would echo what Senator Vitter 
said about the out-years numbers, and I have shared my 
dissatisfaction with Dr. Orzag and Dr. Holdren about that. But 
I am very optimistic that someone of Norm Augustine's quality 
and his experience is going to see through that and he is going 
to recommend what he legitimately thinks should be. So in that 
regard, I am not as concerned as you are, Senator Vitter, that 
Dr. Augustine will feel like he is constrained to use their 
numbers because you simply cannot do everything that NASA has 
to do if you leave those out-year numbers.
    What is NASA's estimate of probability of completing the 
remaining missions on the Space Shuttle by the end of--well, 
let us make it easier--calendar year 2010?
    Mr. Scolese. Well, actually I do not think I have that 
number. I have it till September 2010. As you know, we worked 
the manifest, and I would have to get you the exact numbers, 
but it is on the order of between 50 and 70 percent confidence 
that we can complete those missions by September 2010, 
depending on which model that one uses. And looking at a 
deterministic model where we actually just put in the data--so 
one is a probabilistic, the other is a deterministic--we have 
actually some margin to the September 2010 date.
    But, of course, as you well know, we have to look at it 
essentially every week to make sure that parts are coming in 
when they are supposed to be coming in and that we are not 
having any issues. Of course, we have been known to have 
weather delays we well. So we have to work all those things, 
but our probabilistic models indicate that we can do it and our 
deterministic model indicates that we can make that timeframe. 
But, again, it is not the date anymore. We intend to fly out 
the manifest.
    [The information referred to follows:]

    As of March 2009, NASA estimated the probability of flying out the 
remaining missions in the Shuttle (including the Alpha Magnetic 
Spectrometer flight) by the end of 2010 as being 62 to 79 percent. 
These numbers were generated after the launch of STS-119, but before 
STS-125 and STS-127.

    Senator Nelson. Which is what the commitment from the White 
House is.
    Mr. Scolese. That is correct, yes.
    Senator Nelson. And they have publicly stated that 
commitment.
    I want to put on the record; since the Columbia disaster, 
what is the most number of missions that we have flown in a 
year?
    Mr. Scolese. We will have to get that for the record. I 
believe it was eight. Oh, since the Columbia disaster. I'm 
sorry. No. I believe it was four, four or five.
    [The information referred to follows:]

    During the 12-month period between June 1, 2007 and May 31, 2008, 
NASA launched six Space Shuttle missions: STS-117, -118, -120, -122, -
123, and -124.

    Senator Nelson. I think the record will show four.
    We are now in May 2009, and there are eight missions 
remaining. How many would be flown between now and September 
30, of this year?
    Mr. Scolese. We will have flown four missions between now 
and September 30th.
    Senator Nelson. Of the four missions of----
    Mr. Scolese. For this year, at the completion of this 
mission, we will have flown two this calendar year. We have one 
scheduled for June, one scheduled for August, and we had one 
before that. So in the fiscal year, it will be five.
    Senator Nelson. OK, but between now and September 30----
    Mr. Scolese. We will have two more missions.
    Senator Nelson. Two more missions. So that leaves you six 
remaining.
    Mr. Scolese. Yes.
    Senator Nelson. And did you say that the probability is 70 
percent?
    Mr. Scolese. 50 to 70 percent. That is correct.
    Senator Nelson. And you could fly the remaining six 
missions within a 12-month period.
    Mr. Scolese. That is correct.
    Senator Nelson. But you would never sacrifice any question 
of safety to get those six off.
    Mr. Scolese. That is right. Schedule has not been a 
priority. It is safe flight of the Shuttle and its crews. We 
have to do that in order to do anything in space. So safety of 
flight is our number one priority, and that will determine when 
we fly ultimately. Our models are just that, sir. They are just 
models.
    Senator Nelson. Will you notify us immediately if your 
assessment of probability changes?
    Mr. Scolese. Yes. We keep routine updates of the manifest 
and we will continue to provide those. If we see that we are 
not going to make it, we will notify everybody when we start to 
see that.
    Senator Nelson. You have been negotiating a contract with 
the Russians to provide launch services after the retirement of 
the Shuttle. Does that have a firm, fixed date at which those 
launch services would start?
    Mr. Scolese. I would have to go off and look and see if it 
is a firm, fixed date, but it will begin after the completion 
of the Shuttle to carry crew to the station and bring them 
back. As you know, we have been relying on Soyuz since the 
beginning of the station program for crew rescue, and in the 
aftermath of the Columbia disaster, we were, of course, 
transporting crew on Soyuz. So we have been relying on Soyuz 
for some time, but you are correct. Following the retirement of 
the Shuttle, we will be relying on Soyuz exclusively to carry 
crew to and from the station, as well as for rescue.
    [The information referred to follows:]

    The two most recently signed contract modifications with the 
Russian Federal Space Agency (Roscosmos) for Soyuz crew transportation 
and related services provide a total of nine Soyuz ``seats'' for 
launches in the fall of 2011 through the launches in the fall of 2012. 
These services are independent of the Shuttle manifest, as the Soyuz 
vehicle is required for the provision of on-orbit crew rescue 
capability for six-month periods; the Shuttle cannot provide this 
capability.

    Senator Nelson. So the start date is not a problem. It is 
entirely dependent upon the length of time that the Shuttle 
flies.
    Mr. Scolese. I will have to look specifically at the 
provisions. I cannot tell you that off the top of my head. As 
you know, we are still in the process of completing that 
contract. So I will have to take that one for the record and 
get back to you.
    Senator Nelson. All right.
    It has been reported in the press that you are negotiating 
a price of $51 million per seat?
    Mr. Scolese. That is correct.
    Senator Nelson. And what do we pay per seat now?
    Mr. Scolese. Approximately $47 million per seat.
    Senator Nelson. Per seat. And when was that price 
concluded?
    Mr. Scolese. It was in the last agreement, which I would 
have to, again, get you the exact date of when that was done, 
but that has been probably since--I will have to get you the 
exact date. I do not have it off the top of my head.
    The services, though, are for training, the flight to and 
from the station, and rescue capability, and any of the 
provisions that are required for a long-duration flight.
    [The information referred to follows:]

    NASA signed contract modifications for crew transportation and 
related services with Roscosmos on December 2, 2008, and on May 28, 
2009.

    Senator Nelson. How many seats is NASA committed to buy?
    Mr. Scolese. We are committed, I believe, to buy six seats.
    Senator Nelson. For example, you take three up on a Soyuz.
    Mr. Scolese. Well, we do not pay for the Russians. So the 
cosmonauts would be theirs, and we pay for our crew members 
that we are responsible for, which include NASA members, ESA, 
and JAXA member, our partner members that we are responsible 
for.
    Senator Nelson. In last year's authorization bill, there 
was guidance to NASA about COTS-D Space Act agreements to 
develop a U.S. commercial alternative to Soyuz. We authorized 
$150 million in funding for COTS-D. I noticed that you are 
putting $150 million of stimulus funds toward the Commercial 
Crew and Cargo program, but not actually initiating COTS-D 
agreements. Why are you not initiating these Space Act 
agreements?
    Mr. Scolese. Well, we are working the commercial program as 
you defined. There was cargo on it. We have those two contracts 
with SpaceX and Orbital to do cargo. We had one for COTS-D. I 
cannot recall a specific--$150 million to go on to COTS-D.
    We did this year in the stimulus identify $150 million to 
stimulate a commercial activity, and it is broken into two 
pieces: $70 million to go off and develop capabilities that any 
visiting vehicle would need, including commercial vehicles, and 
that includes developing the human space flight rating 
requirements, the requirements that you need to be certified 
for human space flight. As you well know, we build human 
spacecraft and design them so infrequently that we have to 
write those requirements down. So part of this is to make those 
available to everybody, make them understandable to everybody, 
and that will help not only the commercial providers broadly, 
but all of us. And then $80 million to stimulate activity for a 
commercial crew.
    Senator Nelson. We have 7 minutes left in the vote. I am 
going to recess the Committee, and I will be right back.
    Mr. Scolese. OK.
    Senator Nelson. Thank you.
    [Recess.]
    Senator Nelson. The Committee will resume.
    I want to go back to the question that I had asked you 
earlier. You described the breakdown of how you intend to 
program $150 million for Commercial Crew and Cargo. Instead of 
putting the dollars into the various component pieces that 
would enable crew capability, would it not make more sense just 
to invest that in a milestone-based demonstration flight?
    Mr. Scolese. We discussed that, and we believe that we need 
to take a measured approach to developing commercial crew. As 
you know, again it is a very difficult prospect to develop a 
crewed vehicle to carry crews safely to and from space, let 
alone rendezvous and dock with the Space Station. So we are 
working a measured development where we work progressively from 
developing the capability to get into space, to conduct the 
rendezvous and docking with the Space Station, to crew rescue, 
which can be done without having to worry about crew escape, 
all the way up to carrying crew. That is the philosophy that we 
are working to achieve.
    To do that, we needed to do some things that broadly help 
the community that wants to do this, as I mentioned earlier, 
about developing clear and concise specs and standards so that 
we can safely put our crew on those vehicles. And further, I 
think you have seen the annual report of the Aerospace Safety 
Advisory Panel that had some questions about the detail of our 
human rating requirements. So that is all part of what we are 
trying to accomplish, and we believe that will get us a 
commercial crew capability quicker and safer than if we were to 
just go off and suggest that we fund a capability.
    Senator Nelson. But that was not what the legislation said. 
The legislation said that $150 million was funding for COTS-D. 
In this case, you would not even have to pay until the COTS-D 
partner was able to successfully demonstrate that capability. 
Is that not right?
    Mr. Scolese. It would be dependent upon how we structured 
it. Of course, we wanted to maximize competition for the 
vehicle. As you know, there is only one COTS-D provider.
    Senator Nelson. Well, when I say ``you,'' I am referring to 
NASA, and you were not the Acting Administrator at the time. 
This is an example of where NASA has not followed the 
legislation.
    Now, let me ask you this. Would $150 million be enough to 
demonstrate that capability?
    Mr. Scolese. We would have to look at it, but I do not 
think so, sir.
    Senator Nelson. Well, what do you think it would be?
    Mr. Scolese. I would have to get back to you on that, but 
it would be several times that, I would expect, because recall, 
we have to develop not only the crew portion of it. We have to 
develop the life support systems, the launch escape systems, 
the recovery systems. All of those have to be developed and 
demonstrated, and $150 million does not seem enough to do that.
    Senator Nelson. We had a unique opportunity, if NASA had 
listened and followed the law, we had a unique opportunity this 
year between the 2009 operating plan and the additional funds 
provided by the stimulus bill and the development of the 2010 
budget to craft a COTS-D plan that would have funded the 
program at the level that the folks needed. That path was not 
pursued. NASA did not obey the law.
    Again, I am not saying it to you because you are the Acting 
Administrator since January 20, but I want to point this out 
that sometimes NASA does not want itself to be helped. We have 
got to get our act together.
    Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman. Let me just go 
back briefly to these layoffs and WARN Act notices because we 
have gotten conflicting signals from this discussion and some 
previous discussions, and I just want to nail that down 
hopefully here, if not, as a follow-up.
    [The information referred to follows:]

    In 2006 and 2008, NASA issued competitive announcements seeking 
proposals for commercial cargo and crew transportation capability 
demonstrations. Based on the input received from commercial space 
companies who submitted proposals during those time periods, NASA 
believes the costs associated with a COTS-related crew transportation 
demonstration effort would exceed $150M.

    I think you said there would be no new WARN Act notices 
from Lockheed between now and the report. Is that right?
    Mr. Scolese. That is correct.
    Senator Vitter. Now, we have a briefing page from NASA, 
which is not necessarily inconsistent with that, but it says 
companies are expected to issue additional WARN Act notices 
over the next several months. Now, that may not be Lockheed. 
But are they expected from other contractors between now and 
the report, and is that advisable given that we do not know 
what the report will recommend?
    Mr. Scolese. Well, sir, we have to be careful in how we 
report. I am not sure which report you are looking at, if you 
are looking at, I think, October of last year's report, which 
could be referencing that, in which case----
    Senator Vitter. In terms of WARN Act notices, I am looking 
at a recent NASA briefing; in terms of the report, I am talking 
about the Augustine report.
    Mr. Scolese. No. I understand but I do not know what the 
date of----
    Senator Vitter. This is a briefing dated yesterday.
    Mr. Scolese. Yesterday, OK. I have not seen that briefing, 
so it is hard for me to comment on it. We, of course, do not 
know when necessarily WARN Act notices will go out or if they 
are even necessarily related to the Shuttle, but we do work 
closely with the contractor community to understand what is 
going on. It probably will be better for me to explain what we 
are doing and how we are coordinating, and then I will go back 
and find out exactly what you are looking at and get you a 
specific answer to that question.
    As I was saying, we are working hard to make sure that we 
retain the workforce that we need within NASA for the civil 
servants where we have direct control of what is going on. We 
do not anticipate a loss of work force. We anticipate a shift 
of the workforce as we move from Shuttle to constellation. To 
effect that and to keep people working, we are making sure that 
we have incentives to retain the people that we need who may 
want to retire, to encourage them to stay a little bit longer 
until we can fly out the Shuttle--that has not been a problem--
to provide people with career paths, job opportunities on 
Constellation so they know they have a place to go to when the 
Shuttle goes away, but they know their prime job is to fly the 
Shuttle. The contractor workforce and civil service workforce 
is an extremely dedicated workforce that is doing a great job.
    On the contractor side, we are trying to do the same thing. 
We have less control, of course, so we work with the contractor 
community to provide opportunities where we can and to 
encourage the contractors to provide opportunities for these 
people as they win contracts. We provide retention bonuses, 
funding to accomplish that so that people can stay, and provide 
support for retraining where that is appropriate. The 
contractors have been very good at trying to place people when 
there are displacements that are needed, and from what I can 
tell, they have done a very good job. Our estimates have always 
been high. So less people have been impacted than we have 
projected.
    But as for the specific data that you have there, I have 
not seen it. I apologize for that.
    Senator Vitter. Sure.
    Mr. Scolese. I will have to go back and look at it.
    Senator Vitter. If we can follow up just so that I can 
frame the question, this is from NASA yesterday about WARN Act 
notices and it says ``companies are expected to issue 
additional WARN Act notices over the next several months as 
Shuttle manufacturing activities continue to wind down.'' So it 
is Shuttle-related, not necessarily Lockheed. So your previous 
statement may be true. But it does seem to be expected between 
now and the Augustine report. So my question is, does that make 
sense between now and the Augustine report, when the Augustine 
report may suggest something that these actions make either 
impossible or very expensive to do.
    Mr. Scolese. I understand. Again, I will get you the 
specifics because I cannot do that here. But we know that there 
is nothing that will make it impossible.
    [The information referred to follows:]

    Contractors issue Worker Adjustment and Retraining Notification 
(WARN) Act notices based on their projections of their total business. 
Space Shuttle contractors continue to reduce workforce as production, 
support, and operations milestones associated with the last flights are 
completed. Most of the drawdown activity is taking place through normal 
workforce attrition, primarily by not backfilling positions that become 
available through retirements, reassignments, or other kinds of 
voluntary separations. When plans call for workforce reductions in 
excess of normal attrition rates by a sufficient margin, Federal law 
requires contractors to issue WARN Act notices to employees 60-days 
prior to any potential involuntary separation activities. During that 
60-day period, contractors continue to monitor their workforce 
attrition trends and will, if necessary, adjust their final termination 
notices accordingly. WARN Act notices may also be issued in cases where 
employees are ``rebadged'' from an incumbent to a new contractor.
    WARN Act notifications associated with reductions in Shuttle 
contractor workforce planned for early FY 2010 were issued in late 
July.
    The Administration will consider the options to be made by the 
Review of U.S. Human Space Flight Plans Committee, and take the 
appropriate next steps, in consultation with Congress. In the meantime, 
the Agency continues to implement established policy to retire Shuttle 
after the safe completion of the current manifest and the assembly of 
the International Space Station, which we believe can be accomplished 
by the end of 2010.

    Senator Vitter. Well, nothing is impossible, but if 
something becomes triply expensive, it might as well be 
impossible.
    Mr. Scolese. Well, I did not say it would not be expensive. 
I just said it would not be impossible.
    Senator Vitter. Well, that is my point.
    Mr. Scolese. I understand.
    Senator Vitter. Exactly my point. It, as a practical 
matter, would be impossible.
    Now, we have been talking a lot about Shuttle. The other 
way to close the gap is from the other direction. For instance, 
for Ares V and Altair development that was originally planned 
to start in 2011, I believe, and that is now beginning in 2013. 
What is the possibility of shifting that back closer to 2011? 
Is that a possibility and at what cost?
    Mr. Scolese. Well, certainly for Ares V and Altair, it is 
possible to move those developments up. I would point out that 
for Ares V, we are actually making progress, as we work on Ares 
I because there are common elements. The Ares I utilizes the 
same solid or a similar solid to what the Ares V is planning on 
using, and the upper stage engine, the J2X, is the same between 
the Ares I and the Ares V. So as we are working on Ares I, we 
are also working on the Ares V. But, of course, if additional 
resources were available, we could, in fact, move up both of 
those activities. I believe they were ready to start in earnest 
more in the 2012 timeframe, but again, we can go off and look 
more into that.
    Senator Vitter. OK.
    The final question for now. In the past there has been some 
discussion that in my opinion exaggerated safety concerns about 
Shuttle use of the PRA tool and other things. Most recently, 
NASA's formal opinion is that there is a 98.7 percent 
probability of safely executing each flight planned as of now. 
Is that NASA's current confident estimation, bottom line?
    Mr. Scolese. That number is not familiar to me. Are you 
looking at the range of numbers there?
    Senator Vitter. I am looking at a NASA report, page 9. It 
is the Shuttle extension report, page 9. That says the latest 
Space Shuttle probabilistic risk assessment, PRA, indicates 
that the single mission risk for loss of crew and vehicle is 1 
in 77. Stated another way--and this is what I quoted--there is 
a 98.7 percent probability of safely executing each flight. So 
is that NASA's current bottom line?
    Mr. Scolese. Yes. In the appendix of that report, there is 
a variance that shows our confidence level and those numbers. 
While the PRA is a good indicator, it is not the only 
indicator. The Shuttle is a very complex vehicle to operate, 
and I think that is the best way to describe it and that report 
describes that as well. It is an aging vehicle as well. So it 
is more than just what is the probability that all the pieces 
are going to work. It is the likelihood that we are going to be 
able to deal with all of those issues as they come up. So, yes, 
the numbers that you quoted are exactly right, but our 
uncertainty, which is in the appendix of that report, shows 
that there is a reasonably large error associated with those 
numbers--or error bar, as we call it, associated with those 
numbers.
    Senator Vitter. That is all I have right now, Mr. Chairman.
    Senator Nelson. Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I apologize for 
missing your testimony and being late. I really was anxious to 
hear it. I just really have a couple of questions.
    The last Shuttle flights are next year. Is that right?
    Mr. Scolese. That is correct.
    Senator Isakson. The budget request that I show here is 
$18.68 billion in 2010 and basically roughly the same amount of 
money over the 4 years succeeding. Is that a sufficient amount 
to develop the next generation craft that will fly?
    Mr. Scolese. It will allow us to proceed on the development 
of those vehicles, yes.
    It was asked earlier if that would support the 2020 lunar 
landing, and I stated then and I will state again that that 
would be a challenge. We are still in the process of evaluating 
what the budget represents in terms of human lunar return and 
the time-frame for that. So talking about a 2020 date, that 
would be a real challenge to make the 2020 date with that 
funding level.
    Senator Isakson. But development of the vehicle and test 
flying it in orbital test missions is achievable. It is going 
to the moon by 2020----
    Mr. Scolese. Yes. In fact, the budget provides a greater 
opportunity to make the 2015 initial operational capability 
that we were talking about. The budget provides us funding in 
the early years where we really need it to get the initial 
operational capability where we end up with, in the 
Constellation program, the program that is developing those 
vehicles, approximately $630 million additional in 2009 and 
2010. So that provides us greater assurance of making that 2015 
initial operational capability.
    Senator Isakson. When the Shuttle stops flying next year 
and the next generation is in development, there is about a 5-
year period in there. Are the Russians going to do all the 
shuttling back and forth to the Space Station?
    Mr. Scolese. Yes.
    Senator Isakson. Will we fly with them?
    Mr. Scolese. Yes.
    Senator Isakson. Is it Kazakhstan where they go out of?
    Mr. Scolese. Yes. They fly out of Kazakhstan, yes.
    Senator Isakson. One other question. There has been some 
written about the Chinese space program and their goal to go to 
the moon. How vibrant and rich is their space program right now 
from what you know?
    Mr. Scolese. From what we know, their space program is very 
vibrant and very rich. They are doing a lot and they certainly 
have significant capabilities. We do not actually know what 
their ultimate objectives are, but they certainly are building 
the capability that would allow them to go to the moon if they 
chose to at some point in the future.
    Senator Isakson. My reason for asking is I am fascinated by 
space exploration and envious of the chairman and his 
experience in so doing, but I think we must remain competitive 
in the advancement of space. We reacted to the Soyuz quickly--
not the Soyuz, but Sputnik quickly in the 1960s. I was around 
then and remember that day when we thought we were behind and 
we leapt ahead. I think it is important for us to remain 
competitive and stay ahead, critically in the best interest of 
this country.
    So I appreciate what you do and thank you for your 
testimony.
    Mr. Scolese. Thank you.
    Senator Nelson. Senator Isakson, you were not here when we 
talked about how the Administration has committed to continue 
to fly the Space Shuttle for the remaining eight flights until 
the Space Station is completed. NASA says it has a probability 
of 50 to 70 percent likelihood that they could fly out all of 
those Shuttle missions by the end of 2010.
    There are a considerable number of folks, yours truly 
included, that feel like that that is not a realistic flight 
schedule. We provided for that in the budget resolution that we 
passed by adding another $2.5 billion in budget authority and 
outlays in Fiscal Year 2011, should the Shuttle have to 
continue to fly in 2011 to complete the Space Station.
    The budget that the President has submitted, identifies 
$400 million in Shuttle retirement costs not previously 
accounted for. And it transfers those funds from the 
exploration budget. Now does that $400 million include 
retention incentives to retain critical workforce personnel 
until the final Shuttle mission is completed?
    Mr. Scolese. I would anticipate that it does. I have to 
look at the exact details, but it is intended for that. 
Transition and retirement would include those, yes.
    Senator Nelson. Would you get back to us on that?
    Mr. Scolese. Yes.
    [The information referred to follows:]

    The $400M is specifically to conduct Shuttle Transition and 
Retirement (T&R) activities. Severance and Retention (S&R) is funded 
separately within the Space Shuttle Program budget. The S&R work helps 
maintain a high-quality Space Shuttle workforce through the use of 
appropriate retention strategies, and also provides severance for 
particular specialties. The NASA funding plan for S&R efforts is as 
follows:

  <bullet> FY 2009 = $16.0M

  <bullet> FY 2010 = $165.0M

  <bullet> FY 2011 = $95.7M

    Senator Nelson. Do you anticipate additional close-out and 
retirement costs being identified over and above the $400 
million?
    Mr. Scolese. There could be. That is an estimate based on 
what we know today. So there could be additional costs as we 
learn more about what needs to be done. But that is our best 
estimate as of today.
    Senator Nelson. In last year's authorization bill, we 
emphasized the importance of the ISS as a National Laboratory. 
It was Senator Hutchison who, about 5 years ago, in the NASA 
authorization bill had first designated the Space Station as a 
National Laboratory. In that authorization bill, we directed 
NASA to develop a national lab management plan. We emphasized 
in there KSC's space life science lab, as an asset of the Space 
Station national lab. Is there any effort underway to develop a 
separate funding line for ISS national lab activities?
    Mr. Scolese. We are working the ISS as a national lab, and 
we have identified resources in the Constellation program and 
in the station program to do that. So I guess the answer is, 
yes, we are doing that.
    Senator Nelson. OK. Would you get back to us with the 
details on that?
    Mr. Scolese. Yes, we can do that.
    [The information referred to follows:]

    At this time, there is no separate funding line at NASA for 1S5 
National Laboratory efforts. While creating a separate line for this 
work is an option, it is one NASA would have to review as part of the 
annual budget formulation process. The intent of the National 
Laboratory initiative is to accommodate the missions of other U.S. 
government agencies, private firms and non-profit institutions. The 
NASA investment is limited to the funds required to enable these 
partnerships and thus stimulate their investment.

    Senator Nelson. For the Space Station to function as a 
National Laboratory, it has got to have the ability to bring 
cargo back, the down-mass capability. Obviously, we are going 
to be limited once the Shuttle is retired in that down-mass 
capability. What is NASA going to do to address that need?
    Mr. Scolese. We are working the down-mass with our 
partners, of course, and also with the commercial cargo to go 
off and address that. So we are working our plans to go off and 
develop that. That will be an evolving activity, as the 
commercial cargo comes on line, our ability to work with the 
Soyuz and with our European and Japanese allies on pulling this 
all off. So that is an evolving capability that we will be 
working.
    But you are absolutely right. I mean, as we use ISS more 
and more--and you know, we are getting a six-person crew 
beginning this month. So we are starting now to use ISS for 
what it was intended, as a laboratory. In the near term, we 
will be able to use the Shuttle, and in the longer term, we 
will have to use these new capabilities until we get to full-up 
capability with Orion and be able to carry down about the 
equivalent down-mass that we got with the Shuttle.
    Senator Nelson. So until you get Orion, your down-mass 
capability is only Soyuz?
    Mr. Scolese. And whatever we can develop with the 
commercial capabilities and with our European and Japanese 
colleagues.
    Senator Nelson. Well, how far along in their development 
are they?
    Mr. Scolese. Not very far along. Well, they are far along 
in delivery of capability. In terms of down-mass, that is still 
a capability that has to be developed.
    Senator Nelson. So we really do not have a down-mass 
capability except what you can stick in the Soyuz. Well, that 
is hardly any because you have not got a lot of room in there 
to cram anything in, do you?
    Mr. Scolese. Well, there is some room, but we are also 
looking at ways of accomplishing the goals that would be 
achieved by bringing down-mass down by doing it on the Space 
Station and getting that data down-linked to the Earth in 
effective ways. As you know, we do that with our robotic 
spacecraft that are sitting there on Mars doing experiments. 
Here we have the capability of having people doing those and 
collecting the data and down-linking that as well.
    So we are looking at many ways of bringing the information 
back if we cannot bring the samples back. So we are going to do 
both. We are going to try and bring the samples back to the 
best ability that we can, and we are going to evolve as we 
learn more and more. In the absence of being able to bring the 
samples back, we are going to get the data back in a way that 
the researchers on the ground can use it effectively.
    Senator Nelson. Would you share the specifics of that with 
us? That sounds very promising if you can do data links and 
bring them back. Share with us what we are going to sacrifice 
in the way of down-mass until we get Orion.
    Mr. Scolese. OK. We can provide that information to you.
    [The information referred to follows:]

    It should be noted that while both Soyuz and Orion will be able to 
provide a modest amount of downmass, NASA will rely on industry to 
provide both up- and downmass to and from the International Space 
Station (ISS) after the retirement of the Shuttle. The Agency has 
signed two Commercial Resupply Services (CRS) contracts for these 
services. For the period between 2010 and 2015, one of the CRS vendors 
is under contract to provide a minimum of 3 Metric tons of downmass; 
the projected. ISS downmass requirement for the same period is 9.6 
Metric tons. NASA is working with researchers to encourage minimization 
of down-mass requirements through increased use of data products 
produced on orbit that can be digitally down- linked. The down-link 
capacity on ISS is scheduled to be upgraded to 300 megabytes per second 
to serve this purpose.

    Senator Nelson. As you should have been briefed, last 
year's authorization bill required a number of reports from 
NASA. One of the overdue reports is to identify other Federal 
programs that can use the workforce and facilities that will 
become available when the Shuttle retires. There happen to be 
some facilities in New Orleans. There happen to be some 
facilities in the Kennedy Space Center and others.
    Now, that report was due in March and this is the end of 
May. When can we expect that report?
    Mr. Scolese. I will have to look back. It should be 
available in the next month.
    [The information referred to follows:]

    NASA completed the Aerospace Skills Retention and Investment 
Reutilization Report and submitted it to Congress on July 22, 2009.

    Senator Nelson. NASA has based its Ares I/Orion initial 
operating capability date as March 2015 on a 65 percent 
confidence calculation. Is that IOC date still based on that 
confidence level?
    Mr. Scolese. That is the confidence level that we are 
targeting. We develop our confidence level at approximately the 
preliminary design review which is scheduled for being 
completed early next year. That is the time when we will say 
specifically what date and what confidence level. However, all 
of our indications right now are that we are working toward 
that date and that confidence level, March 2015 and 65 percent 
confidence level. But we still have more work to do to validate 
that.
    Senator Nelson. OK, 65 percent.
    There seemed to be a number of changes that you are 
considering in the Orion spacecraft in order to improve the 
chances that you are going to make that 2015 date. One change 
includes cutting the crew from six to four. When do you expect 
to make a decision on those changes?
    Mr. Scolese. Again, those are all part of the preliminary 
design review which is going on right now. The changes, for the 
most part, are to improve performance and improve reliability 
of the vehicle. In any design process, one wants to sit down 
and go off and understand that.
    We have not given up a six-person crew. What we are doing 
is we are looking at the design. We are looking at what we need 
to do in order to support the initial operational capability so 
we can provide higher confidence. We are looking at the design 
to see where we can make improvements.
    Two areas of improvement that are worth mentioning that 
resulted in design changes are the launch abort system where we 
revised that to more effectively cover the crew module so that 
we can reduce acoustic loads which makes it safer and better 
for the crew as they are on ascent and makes it better if they 
have to abort. We also changed the power system so that it 
would be more reliable in orbit during the mission so that we 
could have a higher confidence of completing the mission.
    So many of these changes are being done as we are learning 
what it is that we are doing in this design process, and it has 
to be remembered that we still have not completed our 
preliminary design of this vehicle yet. So there may still be 
other changes. They are getting smaller and smaller as we get 
smarter and smarter, and we get further along on the design.
    Senator Nelson. When is that design review?
    Mr. Scolese. It is scheduled for the early next year time-
frame when it is all going to be complete. We do it in stages. 
We do the elements and then we do the entire system. So we will 
do Ares. We will do Orion. In fact, we have done Ares already. 
We will do Orion later this summer/early fall. And then we will 
do the entire system where we look at the ground system, the 
spacecraft, the launch vehicle, and all the associated elements 
in the early part of next year.
    Senator Nelson. I want to ask you a question specifically 
about the workforce at the Kennedy Space Center. Initially you 
were going to absorb some of the job losses when the Shuttle is 
retired, which you say is going to be in 2010. I think it is 
going to be 2011. They were going to be absorbed by the work on 
the lunar lander. Now, given that the present numbers that came 
out of the President's office for the out-year funding, 
essentially eliminates some of that out-year lunar funding, 
when do you expect to have any updated workforce projections?
    Let me say parenthetically that that question may be, and I 
hope it will be, answered by Dr. Augustine in his report.
    Mr. Scolese. Well, that was going to be my answer. We will 
provide an updated workforce for Fiscal Year 2010 only. That is 
another one of the reports that you were mentioning next month. 
We will only look at 2010 because we do have the budget being 
looked at, the program being looked at. And then at the 
completion of the review this summer, we will update those 
workforce numbers, as well as the entire plan, if so needed. 
But we will update the plan based on the results of the review.
    Senator Nelson. When do you expect that we will see the 
report on the mishap investigation and recommendation with 
regard to the orbiting carbon observatory?
    Mr. Scolese. That is still in the works. It has proven to 
be a more difficult investigation than we all thought. The 
teams are working that. I would hope we have that done before 
the end of the summer, but it is taking longer. The problem has 
proven to be more difficult to identify and resolve than was 
originally assumed. But it is important to recognize it was a 
launch vehicle faring issue that we are working. It was not 
associated with the spacecraft or the instrument.
    Senator Nelson. Another delay that was no fault of NASA's 
was the solar dynamics observatory and the lunar reconnaissance 
orbiter. That delay is because they have had problems with 
Atlas V launch slots. But that costs NASA money.
    Mr. Scolese. Yes, it does.
    Senator Nelson. How much?
    Mr. Scolese. We will get you the exact numbers, but it is 
in the tens of millions of dollars. LRO and SDO are in 
different budgets. We will get you the specific numbers. And 
SDO is still TBD, of course, so we cannot give a final number 
until we actually have a launch date solidified. Right now, we 
are hoping that we can get it launched in October.
    [The information referred to follows:]

    The estimated cost impact to the Major Program Annual Report 
baseline of delaying the SDO launch by 15 months to November 2009 is 
$58.0M. There continue to be issues with the Atlas launch vehicle fleet 
that will delay the launch of SDO beyond November 2009. NASA will 
provide additional cost information once the full extent of the launch 
delay is known. ($58.0M represents the increase in SDO's Base Year 2006 
Development Cost of $623.7 to $681.7M.)

    Senator Nelson. You need to know that I think that this 
Committee ultimately, with regard to a very important satellite 
used by a lot of communities, including defense, the NPOESS. I 
think that you are going to see our recommendations to get to 
those problems, that NASA take more of the lead. I have been 
visiting with the Air Force about how they need to let you all 
be the lead on this.
    In light of the independent review team recommendations, 
what does NASA see to be the best future options for NPOESS?
    Mr. Scolese. Well, the independent review team recommended 
that there be a restructuring to have more independent 
oversight and insight into the development of that vehicle, and 
we agree with that. So whether NASA provides that capability, 
as you are suggesting, or whether the Air Force does that, it 
needs to be done. That is the critical piece, I think, that is 
being missed.
    I believe the other recommendation they made was coming 
down and having everybody have a common understanding of what 
the requirements and the goals are for this mission. We all 
need to get aligned on those goals, or else it will be very 
difficult to resolve issues as they come up.
    Senator Nelson. You are initiating a green aircraft 
initiative that will work to reduce the fuel burn, the noise, 
and the emissions. Will it also include aviation biofuels?
    Mr. Scolese. Yes. That is a component of the activity. The 
intent is to look at the entire chain, if you will, the air 
space system as well as the vehicle systems, to come up with a 
broader, more capable solution. Trying to find a solution in 
one area to reduce fuel or to reduce our dependence on a fuel 
type is not probably going yield the advantage that would 
happen by looking at it as a complete system where we adjust 
the aircraft system, the avionics, the air traffic control 
system, and how we fly our airplanes. So the intent of the 
program is to look at all of those things and bring those all 
together into a system approach to obtain better fuel 
efficiency and better safety, and biofuels would be a portion 
of that.
    Senator Nelson. In your budget, a part that took a serious 
reduction is Center Management and Operations. Do you think 
this is going to significantly impact the field centers' 
ability to perform needed facilities maintenance?
    Mr. Scolese. It is a challenge for us. It was an area that 
we adjusted based on our budget priorities, and it will have an 
impact. We are addressing that. We made it a priority last year 
to go off and prioritize our facility needs and our facility 
activities. Continued reduction in that would be a serious 
problem. So we are looking at that very closely to minimize 
future impacts. We have a plan that is laid out now that we 
believe will allow us to effectively manage our centers, but we 
cannot afford to change it very much from where we are today.
    Senator Nelson. I promised you that I was going to get you 
out of here by 4 o'clock and it is 7 and a half minutes until 4 
o'clock. We want you to know how much we appreciate your public 
service and that of all of the NASA team. We have to bore in on 
what we think are the shortcomings, but that does not at all 
diminish the hardy congratulations for the continuing can-do 
spirit and the team work that results in successes like we have 
just seen. So that is extraordinary, and we commend you for it.
    What we are going to increasingly do with this new 
administration is hold NASA accountable. When we ask for 
reports, we as the separate legislative branch, expect those 
reports, and to have them on time instead of the slow walk that 
has occurred in the past. That is the way that we can have the 
legitimate sharing of information that we have to have between 
the legislative and executive branches in order to make and to 
continue this as a successful space program.
    And without objection, Senator Hutchison's opening 
statement will be entered into the record.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    I want to welcome you to this hearing on NASA's FY 2010 Budget 
Request, and thank you for your service as Acting NASA Administrator. 
In such a time of transition, it cannot be an easy or comfortable place 
to be, but you have exhibited great competence, ability and dedication 
in filling that role.
    I also want to take note of the outstanding work just completed by 
the STS-125 crew, who are scheduled to land tomorrow at the Kennedy 
Space Center, in not only restoring the Hubble to full service, but 
increasing its capability. What a tremendous example of the marriage of 
space science, astronomy and human spaceflight in completing a task 
that offers such a huge potential scientific reward. You have my thanks 
and congratulations for that, as well.
    As we review the proposed FY 2010 Budget for NASA, we see an agency 
that is indeed at a crossroads. It is a crossroads we have foreseen, 
but it is, I'm afraid, one for which we have not adequately prepared.
    We face the prospects of an extended gap in the ability to fly U.S. 
astronauts on US-owned launch vehicles to work on the U.S. segment of 
the U.S.-led International Space Station. At the moment, the only real, 
operational alternative we have to fill that gap is through the 
purchase of launch services aboard Russian Soyuz vehicles.
    I don't know many who are especially happy with this circumstance. 
Certainly it is something we have been concerned about since this 
``transition plan'' was first announced back in January of 2004.
    Since then, this Subcommittee has made every effort and authorized 
sufficient funds and established policy guidance that could have made 
this situation less lengthy and less disruptive of our workforce and 
spaceflight industry. But the funds were not requested, and the funds 
were not appropriated, and now here we are.
    As a result, the budget-makers have been driving our Nation's space 
program, rather than the policy-makers, in either the White House or 
the Congress. In my opinion, that is wrong and needs to be change. 
Policy should not simply be a consequence of budgets. That's not how 
this Nation gained its leadership position in space, and it's not how 
we can maintain it.
    Hopefully, we will see a change in that practice. We have heard 
encouraging words from the President and from his Science Advisor, Dr. 
Holdren, and we have seen the initiation of an independent review by 
someone many of us know well and admire deeply, Mr. Norman Augustine.
    I applaud the review of human spaceflight he will lead. It would 
have been better to have been started sooner, but we are where we are.
    I hope that the Review effort can be freely and openly conducted 
and that the review team will be able to look at what the Nation really 
needs to do in the Human Space Flight arena, and not be limited by what 
the Office of Management and Budget wants to make available.
    The Congress, working with the President, need to be given an 
honest appraisal of the options, a clear understanding of their 
respective costs, and then, together, decide what is in the national 
interest. Knowing Norm Augustine as I do, I believe he will provide us 
with that honest assessment.
    I will have questions later, and for the record, regarding specific 
areas of concern and interest in the NASA budget.
    Thank you again for your service, Mr. Scolese, and I look forward 
to your testimony.

    Senator Nelson. Thank you all.
    The meeting is adjourned.
    [Whereupon, at 3:53 p.m., the hearing was adjourned.]


                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Christopher Scolese

    Question 1. During the 1990s, NASA went through a wave of 
retirements and a persistent hiring freeze that has shifted the agency 
toward an older work force. Without a change in course, the proportion 
of NASA employees who are 50-59 years old will make up nearly half the 
entire civil-service workforce by 2014.
    How does this budget support ongoing efforts to recruit the next 
generation of NASA workers, and encourage undergraduates to enter 
science, technology, engineering and math (STEM) fields of study? Has 
the increase of hiring term-limited employees under the previous 
Administration impacted the recruitment of younger employees? If so, 
how?
    Answer. NASA's ability to inspire student interest and achievement 
in STEM fields of study is grounded in its unique mission, work force, 
facilities, research, and innovations. NASA's education programs create 
a pipeline to the future workforce by engaging students through a 
continuum of progressive opportunities from informal education to K-12 
classrooms, undergraduate study, graduate programs, and development of 
institutional research capability. The NASA pipeline is designed to 
inspire, engage, educate, and ultimately employ well-qualified STEM 
employees in aerospace and support the future STEM workforce for the 
Nation. Specifically:

  <bullet> NASA informal education programs build STEM-interest in the 
        general public by providing NASA exhibits, workshops, and 
        special activities at museums, science centers, planetariums, 
        and the activities of community organizations and clubs.

  <bullet> K-12 classroom activities are based on NASA missions and 
        stimulate excitement in students. Educator training and 
        professional development programs improve teacher proficiency 
        and confidence in teaching NASA and STEM content.

  <bullet> High school to undergraduate ``bridge'' or transitional 
        projects ensure that high performing students from grades 9-12 
        are nurtured by NASA. Projects like the Interdisciplinary 
        National Science Project Incorporating Research and Education 
        Experience (INSPIRE) provide year-round activities and summer 
        residential experiences that better prepare these promising 
        workforce candidates for more in depth NASA higher education 
        research and training.

  <bullet> NASA's higher education budget supports the targeted 
        development of individuals who are prepared for employment in 
        disciplines needed to achieve NASA's mission and strategic 
        goals. Graduates of these projects have had in-depth and hands-
        on experience with research and engineering that support NASA's 
        scientific and exploration missions. Experiences include NASA/
        industry internships, scholarships, competitions, and 
        engineering design work. These students, drawn from national 
        audiences, are interested in, prepared for, and able to 
        contribute immediately to the NASA/aerospace work force.

  <bullet> The Office of Education budget builds academic 
        infrastructures supporting STEM education, particularly in 
        community colleges identified as Minority Serving Institutions 
        (MSI's).

    <ctr-circle> This approach results in an increased number of 
            students studying STEM disciplines, particularly in 
            traditionally underserved and underrepresented populations.

    <ctr-circle> Students from these community colleges have a better 
            chance of entering a 4-year institution and achieving in 
            STEM fields. Community colleges are also a rich potential 
            source of technicians to support the NASA missions.

    <ctr-circle> A unique project, Curriculum Improvement Partnership 
            Award for the Integration of Research, has been created to 
            support the development of STEM curricula at community 
            colleges as they lead the production of a diverse technical 
            work force.

    <ctr-circle> Many MSI and non-MSI community colleges are served by 
            the National Space Grant College and Fellowship Program 
            (Space Grant). State-based Space Grant consortia provide 
            NASA and aerospace content and involvement opportunities to 
            students, faculty, and the public in that state. Community 
            colleges that are engaged with Space Grants are able to 
            enhance the STEM education experience of their students by 
            leveraging resources, unique facilities, and experienced 
            staff from larger universities.

  <bullet> Educational technologies expand the reach of NASA STEM 
        content to audiences that have completed NASA programs, or 
        cannot easily access NASA Centers and facilities.

    <ctr-circle> Members of the NASA Student Ambassadors Virtual 
            Community will continue to interact with NASA, share 
            information, make professional connections, collaborate 
            with peers, represent NASA in a variety of venues (e.g., 
            recruitment events), and help NASA inspire and engage 
            future interns. The community's website provides the latest 
            NASA news, announcements, member profiles, forums, polls, 
            blogs, NASA contact information, tools for recruiting and 
            public speaking about NASA, and links to cutting-edge 
            research and career resources.

    <ctr-circle> Telepresence technologies allow NASA staff to cost-
            effectively reach thousands of teachers and students 
            nationwide. Social networks and virtual realities allow 
            participants to share information about NASA's exploration 
            mission in formats that more effectively meet the interests 
            of today's younger audiences.

    During the previous Administration, there was an increase in the 
hiring of term-limited employees as a percentage of all hires, 
particularly starting in FY 2003. In FY 2000-2002, the proportion of 
term hires ranged from 9-10 percent. In FY 2003, the percentage rose to 
32 percent, and between FY 2004-2008 it ranged from 44-48 percent. At 
the same time, there was an increase in the ``recruitment of younger 
employees'', for this purpose defined as employees between the ages of 
20-29 years old. In FY 2000-2002, the proportion of younger hires 
ranged from 1-4 percent. In FY 2003, the percentage rose to 14 percent, 
and between FY 2004-2008 it ranged from 17-25 percent. Statistically, 
there is a strong correlation (linear relationship) between the 
increasing proportions of term hires and younger employees in the NASA 
recruitment program. This data suggests that doing more term hiring in 
recent years has been compatible with the NASA's long-standing goal of 
hiring diverse work force, including younger employees. Anecdotal 
evidence from Center human resources offices suggests that 
advertisements for term positions are attractive to younger candidates 
and that they generally do not have reservations about accepting term 
employment.

                   Trends in Perm-Term Mix and Age of NASA Outside Hires and CO-OP Conversions
                                                 FY 2000-2009**
----------------------------------------------------------------------------------------------------------------
                                       Total       Hires by Appointment Type      Hires by Age
                                      Outside   -------------------------------------------------    20-29 as
               Year                  Hires and                     Terms as              30 yrs     percent of
                                       CO-OP      Perm   Term     percent of     20-29     or          Total
                                    Conversions                     Total         yrs     older
----------------------------------------------------------------------------------------------------------------
FY 2000                                 911        816     95             10 percent11       900       1 percent
FY 2001                                 853        768     85             10 percent28       825       3 percent
FY 2002                                 592        536     56              9 percent23       569       4 percent
FY 2003                                 683        462    221             32 percent97       586      14 percent
FY 2004                               1,101        571    530             48 percen186       915      17 percent
FY 2005                               1,056        576    480             45 percen206       850      20 percent
FY 2006                               1,211        682    529             44 percen262       949      22 percent
FY 2007                               1,351        747    604             45 percen281     1,070      21 percent
FY 2008                               1,546        850    696             45 percen389     1,157      25 percent
YTD FY 2009*                            539        392    147             27 percent93       446      17 percent
----------------------------------------------------------------------------------------------------------------
* As of June 6, 2009.
Includes Outside Hires and CO-OP Conversion to Perm/Term Status, and does not include students hired into
  student/CO-OP Programs.
** Note: There is a strong statistical correlation (0.931) between the increasing proportions of term hires and
  younger (20-29 yrs) employees.

    The Cooperative Education Program, a component of the Student 
Career Experience Program (SCEP), have consistently represented 2.5 to 
3 percent of NASA's workforce over the last decade and continues to 
serve as a major pipeline into NASA's entry level science and 
engineering work force. Upon completion of program requirements, most 
SCEP employees are converted and brought into the NASA work force. NASA 
centers have an active co-op program that funds training and 
development, tuition assistance, and travel for participants.

    Question 2. For over 25 years, Landsat 5 has gathered thermal 
infrared imagery that water managers in Western States use to calculate 
agricultural water use. This valuable data has facilitated greater 
water use efficiency, negotiations on water rights, and changes in 
water usage to maximize economic and environmental benefits.
    What progress has NASA made in including a thermal infrared sensor 
with the Landsat Data Continuity Mission (LDCM)? What additional 
authority does the agency need to guarantee the continuity of this 
important data?
    Answer. NASA is developing a Thermal Infra-Red Sensor (TIRS) with 
the intent of integrating it on the Landsat Data Continuity Mission 
(LDCM) in time for the LDCM launch readiness date of December 2012. 
NASA estimates the cost of development of the TIRS instrument, 
integration of TIRS onto the spacecraft, and in-orbit check out of 
spacecraft and TIRS instrument to be $131-151M. Congress has 
appropriated $10M in FY 2009 to ``initiate development of a thermal 
infra-red sensor'' for LDCM. In its initial FY 2009 Operating Plan, 
NASA has identified a total of $90.1M for TIRS instrument development: 
$51.6M in FY 2009 funds appropriated as part of the American Recovery 
and Reinvestment Act (P.L. 111-5) and $38.5M within the LDCM budget. 
NASA will address the matter of the balance of funds required to 
complete TIRS as part of the formulation of future-year budgets.
    The TIRS instrument Preliminary Design Review (PDR) was 
successfully completed in May 2009, and the LDCM mission PDR is 
scheduled for mid-July. The instrument development is proceeding 
according to plan, but the schedule remains challenging. If NASA 
determines TIRS development cannot be completed in time for the 
December 2012 LDCM launch readiness date, NASA will examine its options 
for flight of the TIRS, including delaying the LDCM launch readiness 
date or flying TIRS on an alternate platform.

    Question 3. The Ames Research Center in Sunnyvale, CA recently 
signed an enhanced use lease agreement with a group of universities led 
by the University of California, Santa Cruz and Foothill-De Anza 
Community College District. This agreement will allow these 
universities to join more than 50 industry, university and non-profit 
organizations already located in the NASA Research Park at Moffett 
Field. These lease agreements have been instrumental in facilitating 
science and technology education and fostering a community of 
researchers, students and educators whose work will help keep the 
United States at the forefront of technological innovation.
    How have the restrictions on enhanced use leases passed as part of 
the FY 2009 Omnibus Appropriations Act impacted NASA's ability to meet 
the terms of these leases? What progress has the agency made in 
reviewing existing enhanced use leases to establish a uniform policy 
that supports collaborative efforts such as those established at the 
NASA Research Park in California?
    Answer. The limitations on obligations of expenditure of Enhanced 
Use Leasing (EUL) revenue in FY 2009 will not have an impact on the 
NASA Centers. After careful review, it was determined that original 
estimates provided to Congressional staff for EUL revenue mistakenly 
displayed reimbursable services for Federal tenants. Since Federal 
tenants do not pay rent, and their reimbursable services are not 
procured through EUL authorities, they should not have been included in 
the estimates.
    With this correction, total estimated revenues from EUL decrease 
to: $3.3M for FY 2007; $5.1M for FY 2008; $6.2M for FY 2009 and $7.1M 
for FY 2010. The FY 2009 revenues are less than the $9M limitation in 
the FY 2009 Omnibus Appropriations Act.
    Based on the enactment of Agency-wide EUL authority, NASA has 
undertaken a review of the Agency's experience and lessons learned from 
the NASA EUL demonstration program. As a result, NASA is updating 
policies for out-leasing NASA facilities and land, including an updated 
NASA Procedural Requirements document (NPR 8800.15) and an updated EUL 
Desk Guide. The revised policies will establish a uniform EUL policy 
across the Agency, managed by NASA Headquarters.

    Question 4. California is home to a suborbital reusable launch 
vehicle industry that is successfully developing commercial vehicles 
for research as well as tourism. Researchers at NASA Ames Research 
Center have been evaluating the use of these vehicles to conduct lower 
cost suborbital research--an expansion of which was authorized by the 
NASA Authorization Act of 2008 (P.L. 110-422). What progress has NASA 
made in expanding the suborbital research program? How does this budget 
provide for and support research using suborbital reusable launch 
vehicles?
    Answer. NASA runs a very active suborbital science program 
consisting of conventional aircraft used as airborne laboratories, 
scientific balloons, and most recently, unmanned aerial systems. The 
NASA Dryden Flight Research Facility operates the ER-2 the DC-8, and 
two Global Hawk unmanned aerial vehicles used for NASA Earth Science 
missions, and manages the development and operations of the 
Stratospheric Observatory For Infra-red Astronomy (SOFIA). The NASA 
Ames Research Center hosts the SOFIA science and mission operations 
center.
    With regard to emerging human suborbital launch vehicles, NASA is 
studying the use of commercially available, passenger carrying 
suborbital rockets as platforms to conduct research in areas such as 
physiological research at the onset of weightlessness, and 
demonstration and validation of technologies in the microgravity 
environment, and has created a Human Suborbital Flight effort led by 
the Space Operations Mission Directorate. As these emerging 
capabilities become available, NASA will work with providers through a 
competitive process to acquire services that support Agency users.
    NASA's Science Mission Directorate (SMD) is always interested in 
any platform that enables high priority Earth and space science. The 
SMD has issued multiple calls for Earth and space science investigation 
ideas. SMD issued two Requests for Information (RFIs) (Feb/Mar 2008; 
Sep/Dec 2008) seeking expressions of interest in potential NASA science 
investigations and payloads/experiments taking advantage of the new 
platforms. The response was low for both RFIs, totaling only 6 
responses suggesting a concept for an Earth or space science 
investigation (14 responses suggested ESMD-relevant investigations). 
Even so, a NASA Research Announcement was issued (Aug/Dec 2008) seeking 
proposals for funded concept studies in Earth and space science using 
any capability of the new platforms. Again, the number of responses was 
low--17 compliant proposals. These were subjected to standard community 
peer review. Most proposals fared poorly in peer review, rated as poor 
science or poor use of the platform. The only highly rated proposal was 
selected for a 1 year funded concept study (``Firefly on Demand'', PI: 
Joanne Hill, USRA/GSFC, for study of terrestrial gamma-ray flashes 
emitted during thunderstorms and their impact on upper atmosphere 
energetics).
    While these efforts have not identified uses for such platforms for 
the space and Earth sciences, NASA is continuing to explore this 
concept and the potential benefits it might bring to other areas of 
research and technology development. NASA is actively seeking out 
potential benefits through Commercial Suborbital Science Workshops, the 
most recent of which was held on May 3 in Los Angeles, and focused on 
biological sciences and aeromedical research. This event was held in 
conjunction with the Aerospace Medical Association's Annual Meeting. As 
an example, with many people potentially experiencing the 
weightlessness of suborbital space flight, large amounts of data could 
be collected for research into the physiological effects occurring 
during the onset of microgravity. Such data could yield important new 
insights.
    Another application for suborbital platforms is in the 
demonstration and validation of technologies in the microgravity 
environment. NASA's Innovative Partnerships Program (IPP) has 
established a program for Facilitated Access to the Space environment 
for Technology development and training (FAST) that is currently using 
commercially available services from the Zero-G Corporation for 
parabolic aircraft flights. The IPP through its FAST program intends to 
use commercially available suborbital flight services to extend the 
period of technology testing in weightlessness by an order of 
magnitude--from 30 seconds at a time to around 5 minutes, when those 
services become available. Since the vehicles to provide these services 
are still in various stages of development and testing, it will take 
time for this activity to mature although initial test flights may 
occur as soon as next year.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Christopher Scolese

    Question 1. NASA's support of the commercial space industry has 
been successful in attracting new industry participants, driving 
innovation, and lowering the cost of access to space. What type of 
programs and funding are provided in the FY2010 Budget to build on this 
success?
    Answer. As part of the Commercial Crew and Cargo Program and its 
associated Commercial Orbital Transportation Services (COTS) cargo 
projects, NASA is completing its promised $500M investment to the two 
funded COTS partners, Space Exploration Technologies Corporation 
(SpaceX) of El Segundo, California, and Orbital Sciences Corporation of 
Dulles, Virginia. Both companies continue to make progress toward 
achieving their specific milestones, and FY 2010 funding will be used 
to pay the companies once they have successfully completed their 
milestones.
    The purchase of cargo services to the International Space Station 
(ISS) is being conducted through the separate ISS Commercial Resupply 
Services procurement effort. In December 2008, contracts were awarded 
to two service providers, Space Exploration Technologies and Orbital 
Sciences Corporation, for cargo delivery beginning as early as late 
2010. The service will encompass all work required to integrate the 
launch vehicle, orbital vehicle, and cargo to perform cargo resupply 
missions to the ISS. The solicitations were for standard resupply 
service for any combination of the following: internal (pressurized) 
cargo upmass, external (unpressurized) cargo upmass, cargo return, or 
cargo disposal. A minimum of 40 metric tons (MT) of upmass is 
contracted between 2010 and 2015. Timely commercial cargo capability is 
critical for effective ISS operations. There is no planned back-up 
capability for ISS commercial cargo. Without commercial cargo 
capability, the crew size and research operations planned for ISS would 
need to be reduced.
    In the area of launch vehicles, the Agency has initiatives in place 
to enable new entrants to the medium-class launch services arena to 
make an improved business case. In 2006, the Agency modified its NASA 
Launch Services (NLS) contract (by which it purchases small, medium, 
and large launchers for robotic missions) to allow new vehicles with no 
previous flight history to participate in the competition.
    Previously, NASA required vehicles to have had at least one 
successful flight to participate. Under the NLS contract, companies may 
propose new launch service capabilities during ``on ramp'' 
opportunities in February and August annually. Space Exploration 
Technologies' Falcon-9 vehicle is an example of an emerging launch 
vehicle that has taken advantage of this opportunity.
    Also, several companies have asked NASA for support in the 
development of their vehicles, and NASA has issued two Space Act 
Agreements with companies to provide that support. Finally, NLS expires 
in June of 2010. In light of that, a Request for Proposals has just 
been issued, with meetings being planned for July 2009. The expectation 
is to complete the procurement process by June 2010. Further detail on 
these activities will be provided to Congress shortly as part of the 
NASA report on small- and medium-class launch services pursuant to 
Section 621 of the NASA Authorization Act of 2008 (P.L. 110-422).
    In addition, the Innovative Partnership Program (IPP) has multiple 
programs that, if funded by Congress, will provide funding to stimulate 
commercial space flight in the FY 2010 budget to build on NASA's 
initial success for attracting new entrants, including:

  <bullet> FAST: Facilitated Access to the Space Environment for 
        Technology Development and Training (FAST) provides 
        opportunities for emerging technologies to be tested in a 
        microgravity or fractional-gravity environment (e.g., Moon or 
        Mars). Currently the program is focused on testing technologies 
        on parabolic aircraft flights using commercially-available 
        services from the Zero-G Corporation, flew technologies from 
        five Small Business Innovation Research (SBIR) firms in 2008, 
        and has competitively selected 21 technologies to fly this 
        coming August. Starting in 2010, if funded, the FAST program 
        plans to provide funding to the Human Suborbital Flight Program 
        to begin testing technologies on commercial flights of 
        suborbital RLVs. The Administration has requested $2M for FAST 
        in FY 2010.

  <bullet> Centennial Challenges: Centennial Challenges is NASA's 
        program to award cash prizes for significant advances in 
        technologies of interest to NASA and the Nation. The program 
        encourages innovation in the private sector by seeking creative 
        solutions from diverse and unconventional sources. Prizes offer 
        a uniquely cost-effective means of technology development. No 
        funds are expended until the technology advancement is actually 
        demonstrated. Centennial Challenges includes several prizes 
        that are directly stimulating commercial space and lower-cost 
        access to space, including prizes for reusable rocket-powered 
        vehicles, improved astronaut gloves, and robotic lunar 
        excavation. The Administration has requested $4M for Centennial 
        Challenges in FY 2010.

  <bullet> SEED Fund: The SEED Fund is intended to develop or mature 
        technologies targeted at filling some of NASA's technology 
        gaps, in close coordination with the Mission Directorates. It 
        is designed as a highly leveraged fund, with partners who have 
        `skin in the game' through cost-sharing in the technology 
        development. Over the past few years, over 80 projects have 
        been funded with every IPP dollar yielding an average of 3.8 
        dollars in total technology development. The SEED fund has 
        previously funded new technology developments within the 
        commercial space transportation industry, such as LOX-Methane 
        engine technology from Armadillo Aerospace, new cryogenic fluid 
        management technologies with Sierra Lobo, cryogenic tank 
        technology from Orion Propulsion, and the FASTRACK to support 
        flight testing on Zero-G and commercial suborbital platforms. 
        The Administration has requested $4M for SEED Fund in FY 2010.

  <bullet> SBIR/STTR: The Small Business Innovation Research (SBIR) and 
        Small Business Technology Transfer (STTR) programs provides 
        technology development opportunities for many small businesses, 
        and many of those projects represent pathways to meet some of 
        the challenges arising in the emerging commercial space 
        industry. In this year's NASA 2009 SBIR solicitation, to create 
        an even more direct linkage to the needs of the emerging 
        commercial space industry, NASA is establishing a crosscutting 
        topic on Low Cost Access To Space (LCATS). The goals of the 
        LCATS topic are to provide more frequent and reliable access to 
        space at lower cost for a wide variety of science missions. 
        This topic provides potential research and technology 
        development that may contribute to significant cost reductions 
        and savings in the long-term that will enable NASA to refocus 
        limited resources on missions beyond Earth orbit. Federal 
        Government funding of SBIR activities is, by statute, a 
        percentage of research and development funds.

  <bullet> Innovative Technology: NASA has established an Innovative 
        Technology Initiative to fund unique early-stage proof-of-
        concept projects from NASA employees and NASA partners. The 
        initiative is designed to fund projects that have the potential 
        to revolutionize NASA's work or to enable whole new 
        capabilities, which includes projects targeted at low-cost 
        access to space. The Administration has requested $2.8M for 
        ``Innovative Technology'' in FY 2010.

  <bullet> Partnership Development: NASA enters into many partnerships 
        with external organizations and companies to develop 
        technologies of common interest and also to transfer NASA-
        developed technology for other ``Spinoff'' applications that 
        can provide public benefit through quality-of-life improvements 
        and economic growth. Many of these partnerships and transfers 
        of technology benefit the emerging commercial space community. 
        Some examples of this are: the licensing of inflatable 
        technology to Bigelow Aerospace, which has enabled their 
        impressive development of commercial space capabilities, and 
        provision of software for numerous applications such as orbit 
        determination software to DigitalGlobe, Inc. in support of 
        their Earth imaging satellite missions. The Administration has 
        requested $23.8M for ``Partnership Development'' in FY2010 to 
        support ongoing activities at all ten NASA centers.

    Question 2. I am concerned about U.S. reliance on foreign countries 
for space launch. This is not only an issue in relation to the 
Shuttle's retirement. America went from being the No. 1 nation in 
commercial space launch to having only one commercial launch in 2006. 
What in this budget will help make America's commercial space launch 
program competitive with international rivals in Russia and Europe that 
currently dominate the market? How will you revive the American 
commercial space launch industry and bring those jobs back from 
overseas? How does the NASA FY2010 budget reduce the United State's 
growing dependence on foreign launch capability?
    Answer. Please see the NASA response to Question #1, above, 
regarding NASA's efforts to promote the development and use of U.S. 
domestic launch vehicles by funding the ISS Commercial Resupply 
Services contracts and the NASA Launch Services contract (and its 
successors), as well as providing technical assistance to the 
developers of launch vehicles. Per the National Space Policy, NASA uses 
U.S. commercial space capabilities and services to the maximum 
practical extent for its missions. This helps create a stable demand 
for these services. NASA has initiated an independent review of ongoing 
U.S. human space flight plans and programs, as well as alternatives, to 
ensure the Nation is pursuing a path that is safe, innovative, 
affordable, and sustainable.

    Question 2a. Why is there no further funding in the FY2010 budget 
for the Commercial Orbital Transportation Services (COTS) program?
    Answer. The FY 2010 budget does include funding for the COTS 
projects, which are funded under the Commercial Crew and Cargo Program 
office budget line. For FY 2010, $39.1M is included to pay for the 
milestones that NASA expects its funded COTS partners, SpaceX and 
Orbital, to achieve in FY 2010. The FY 2010 funding also includes $20M 
to restore a funding reduction that was included in the enacted FY 2009 
budget.

    Question 3. What NASA funding, if any, is directed to enhance 
spaceport infrastructure?
    Answer. NASA currently has projects funded at the NASA Wallops 
Flight Facility in Virginia which improve the Agency's infrastructure 
on the Wallops Island launch facility. The Mid-Atlantic Regional 
Spaceport will see indirect benefits from this work. This funding was 
provided by Congressional direction in the FY 2009 Omnibus 
Appropriations Act.

                                  <all>

</pre></body></html>
